<html>
<title> - [H.A.S.C. No. 111-2] PREVENTING WEAPONS OF MASS DESTRUCTION PROLIFERATION AND TERRORISM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                          [H.A.S.C. No. 111-2]

                       PREVENTING WEAPONS OF MASS

                       DESTRUCTION PROLIFERATION

                             AND TERRORISM

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 22, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
53-055                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES

                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, January 22, 2009, Preventing Weapons of Mass 
  Destruction Proliferation and Terrorism........................     1

Appendix:

Thursday, January 22, 2009.......................................    51
                              ----------                              

                       THURSDAY, JANUARY 22, 2009
   PREVENTING WEAPONS OF MASS DESTRUCTION PROLIFERATION AND TERRORISM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Committee on 
  Armed Services.................................................     1

                               WITNESSES

Allison, Dr. Graham, Commissioner, Commission on the Prevention 
  of Weapons of Mass Destruction Proliferation and Terrorism.....     8
Graham, Hon. Bob, Chairman, Commission on the Prevention of 
  Weapons of Mass Destruction Proliferation and Terrorism........     4
Talent, Hon. James, Vice Chairman, Commission on the Prevention 
  of Weapons of Mass Destruction Proliferation and Terrorism.....     6

                                APPENDIX

Prepared Statements:

    Graham, Hon. Bob, joint with Hon. James Talent and Dr. Graham 
      Allison....................................................    57
    Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
      Committee on Armed Services................................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    73
    Ms. Shea-Porter..............................................    75
    Mr. Wilson...................................................    74

   PREVENTING WEAPONS OF MASS DESTRUCTION PROLIFERATION AND TERRORISM

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, January 22, 2009.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Solomon Ortiz 
presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
            FROM TEXAS, COMMITTEE ON ARMED SERVICES

    Mr. Ortiz. Good morning. Welcome to this hearing this 
morning.
    And the statement that I am about to read will be entered 
for the record. Chairman Skelton is a little under the weather, 
and he couldn't be here. But I want to welcome our witnesses 
and all our old committee members and new committee members to 
this great committee.
    ``Good morning. I would like to start by welcoming my 
colleague, Representative John McHugh from New York, to his 
first hearing as ranking member of this committee.''
    Congratulations, sir.
    ``I would also like to extend a warm welcome to Senators 
Bob Graham and Jim Talent,'' a former member of this 
committee--James, so good to see you, and welcome to this 
committee--``and to Dr. Graham Allison.''
    Thank you, sir.
    ``Thank you all for being here today and for your hard work 
on the Commission dealing with the prevention of weapons of 
mass destruction (WMD) proliferation and terrorism.
    ``This committee was instrumental in the creation of the 
Commission in the 9/11 bill, and the Commission's recent report 
could not be more timely. This committee authorizes the bulk of 
key U.S. nonproliferation programs, and our Subcommittee on 
Terrorism and Unconventional Threats, chaired by Adam Smith, 
also looks broadly at issues of terrorism and counter-
proliferation. We will begin the annual process of reviewing 
these programs when the budget is released this spring.
    ``The risks associated with the proliferation of WMD, 
particularly the risk that such weapons could fall into 
terrorist hands, are some of the gravest threats facing our 
country. Since the end of the Cold War, the world has 
experienced a new era of proliferation.
    ``In the last eight years alone, North Korea has tested a 
nuclear weapon and expanded its nuclear arsenal; Iran has 
rapidly developed capabilities that may enable it to build 
nuclear weapons; authorities uncovered a far-reaching nuclear 
nonproliferation network run by Dr. A.Q. Khan of Pakistan; 
nuclear arms rivalries have intensified in Asia and the Middle 
East; changes in civil nuclear power programs have challenged 
the nonproliferation regime; the spread of biotechnology has 
increased the availability of pathogens and technologies for 
sinister purposes; and dangerous chemical, nuclear, 
radiological, and biological materials have remained poorly 
secured throughout the world.
    ``At the same time, terrorism has spread around the globe, 
and Pakistan has experienced rapid political change and 
internal economic and security challenges while terrorist safe 
havens have grown in its border areas.
    ``Yet, United States policy and strategy have not kept pace 
with the growing risks associated with WMD proliferation and 
terrorism and have failed to fully address the serious WMD 
concerns raised by the 9/11 Commission. Nonproliferation and 
threat reduction programs and activities have been under-
resourced and remain too narrow in scope; engagement with other 
countries and international regimes on WMD threats has been 
insufficient; and the interagency process has lacked the 
leadership, coordination, flexibility, and innovation necessary 
to effectively address these threats. This must change.
    ``This committee has already taken a number of important 
steps on United States nonproliferation and threat reduction 
programs that have moved these programs in the right direction. 
However, there are additional opportunities to address WMD 
threats.
    ``The United States must do what we can to secure and 
reduce WMD and vulnerable WMD-usable material around the world, 
and to reduce the risk that such dangerous weapons and material 
could ever fall into terrorist hands. However, while we must do 
more, the fact remains that we inevitably will be required to 
make difficult assessments of risk in order to prioritize our 
efforts. I look forward to the Commission's recommendations in 
this regard.''
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 55.]
    Mr. Ortiz. And now let me yield to my good friend, the 
ranking member of this committee, Mr. John McHugh.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you very much, my good friend Solomon 
Ortiz.
    And although the words he read were from the chairman of 
the full committee, I know he wishes me his personal best as 
well.
    Do you not?
    The record will show he does. I will need that later in the 
year.
    But, Mr. Chairman, I have a very extensive statement. And 
simply because this is a very, very important issue, I would 
ask unanimous consent that that formal written statement be 
entered in its entirety in the record. And let me just try to 
summarize a bit.
    First of all, in spite of his absence here today, obviously 
we wish Chairman Skelton a quick and speedy recovery from what 
I understand is hopefully a relatively minor but very 
bothersome affliction. But nevertheless, we all owe him a great 
deal of gratitude for calling this hearing and providing what I 
think is an important forum for an incredibly important issue.
    And, in that regard, I want to join with my good friend, 
Mr. Ortiz, in wishing our words of thanks and welcome to our 
panelists here today, two of whom are what we still fondly look 
at as congressional colleagues, Senator Graham and, of course, 
my good friend and former House member, Jim Talent.
    And, Dr. Allison, thank you, as well, for being here and 
for placing your considerable talents and your intellect 
against what is one of the most pressing issues this Nation 
faces.
    As my good friend from Texas, Mr. Ortiz, noted, this is a 
timely hearing. Recent U.S. sanctions placed on individuals and 
private companies from Europe and Asia who were involved in the 
A.Q. Khan nuclear proliferation network should remind us all of 
the willful intent of actors around the world to proliferate 
WMD capability.
    We learned on September 11th there is a clear and 
dangerous, frightening nexus between WMD proliferation and 
terrorism. As I said, this is not new. For the last seven to 
eight years, we have known the harsh reality that Al Qaeda 
seeks weapons of mass destruction to inflict the maximum amount 
of human suffering, geopolitical disorder, and economic damage.
    We have remained unyielding in our efforts to prevent Al 
Qaeda from planning and executing a successful attack in the 
United States. However, this statement is not made without 
caution. Despite our best efforts, I concur with the Commission 
that, as they put it, our margin of safety is shrinking, not 
growing.
    This week, we mark a new Administration. As such, we all 
have a new opportunity to work in a bipartisan fashion to 
develop a comprehensive and, I hope, concrete strategy to 
ensure we have a diverse set of tools to counter WMD threats. 
This strategy must include nonproliferation efforts but also 
look more broadly at all other efforts--technology investments, 
missile defenses, emergency response capabilities, and 
interagency and international coordination efforts--that could 
prevent and limit the damage caused by WMD proliferation and 
terrorism.
    This Commission's reports serve as a foundation for this 
approach. There are many issues that lie before us--Russia's 
recent actions; the miscalculations that could trigger a 
nuclear confrontation between Pakistan and India; Iran; North 
Korea--the kinds of things that face us each and every day and 
must be confronted in new and material ways.
    Before concluding, I want to mention another congressional 
commission, the United States Strategic Commission established 
by this committee. They are examining our strategic posture. 
Their recent interim report was issued in December and 
highlighted the need to maintain a secure, reliable deterrence 
force for the foreseeable future, but also design a nuclear 
program that contributes to decreasing the global dangers of 
proliferation.
    I see a natural complement to these two bodies, our 
distinguished panel here today and that of the U.S. Strategic 
Commission. Work could be instrumental in bringing together a 
bifurcated approach, as it has been in the past, for a better 
path to the future. And, gentlemen, Dr. Allison, I would be 
interested in your thoughts on this possible eventuality.
    Again, I commend you and your fellow commissioners and 
staff on your work to address these complex issues.
    And, Mr. Chairman, with that, I yield back.
    Mr. Ortiz. Thank you, sir.
    We are very honored to have three distinguished witnesses 
before this committee today, and they have done a great job. 
And I hope we can learn a lot from you today.
    And I guess this morning we will start with you, Senator 
Graham. Thank you so much, sir, for the work that you have 
done, you and your members of your committee and members of 
your staff. So we will begin with your statement whenever you 
are ready, sir.

   STATEMENT OF HON. BOB GRAHAM, CHAIRMAN, COMMISSION ON THE 
  PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND 
                           TERRORISM

    Mr. Graham. Thank you very much, Mr. Chairman, Congressman 
McHugh, and the other outstanding, distinguished members of 
this committee.
    I would like to introduce one other person, who is the 
executive director of our Commission and led us with great 
intelligence and occasionally discipline when required, Ms. 
Evelyn Farkas.
    Mr. Ortiz. Welcome.
    Mr. Graham. I am accompanied today, as you have said, by my 
good friend and a person who, frankly, I did not know well 
during our period of service in the Senate but have now come to 
appreciate his intelligence and dedication to the security of 
this Nation. And I know that much of his wisdom came from his 
service on this committee.
    And then Graham Allison, who is a true national treasure. I 
doubt that there are more people than the fingers on one hand 
who know as much about this subject as does Graham Allison. And 
he was a tremendous contributor to our Commission.
    Mr. Chairman and members, you created this Commission, and 
we appreciate the opportunity that you have given us to serve. 
Our charge was to assess our current policies as they relate to 
the proliferation of weapons of mass destruction and terrorism 
and then to make recommendations as to how we thought we could 
further secure our Nation. You gave us six months to accomplish 
this significant task.
    I am pleased to report that our bipartisan Commission, 
appointed by the leadership of the Congress, was unanimous in 
the recommendations that we will be submitting to you today. 
Our full report is available in book form, and I notice you 
have those at your desk. And I hope that you will have an 
opportunity to read further of our analysis and our 
recommendations.
    Our report was conducted through a staff of more than two 
dozen professionals from the intelligence, military, scientific 
communities, all of whom gave us great insight and a depth of 
experience on these issues. We conducted more than 250 
interviews with other officials and nongovernmental (NGO) 
experts. We held eight major Commission hearings and one public 
hearing.
    We visited the Sandia National Laboratories in Albuquerque 
and also met with officials in the United Kingdom, Vienna at 
the International Atomic Energy Agency (IAEA), and in Russia.
    We had planned to visit Pakistan, a country to which we 
give considerable emphasis in this report. We were at the 
airport in Kuwait awaiting a flight to Islamabad when we were 
informed that the hotel in which we were going to spend the 
night, the Marriott, had just been destroyed by a suicide 
bomber. That brought the significance of what we were doing 
into sharp, very personal focus.
    Unlike some of the reports that we have heard in the recent 
past, such as the 9/11 Commission, the Iraq Study Commission, 
there has been, thanks to God, no weapon of mass destruction 
used against U.S. interests or in the world by terrorists to 
date. Therefore, there is no trail of evidence of how that 
particular event evolved, no tangible ability to then analyze 
and assess causation. We are talking about an event that has 
not yet occurred and which it is, we think, within our 
capability, within your responsibility to take steps to 
mitigate the prospects that will occur.
    Our report attempted to be as direct and as honest as 
possible. And, as I said, these were the unanimous conclusions 
of our Commission. Let me state three of our most significant 
conclusions.
    One, our margin of safety is shrinking, not growing. 
Although the United States has done many things to try to 
increase our security, we are not operating alone. We are 
operating on a field against adversaries who, in our judgment, 
in conjunction with changes in technology, have been moving at 
a pace faster than our efforts to control them.
    Second, the Commission believes that, on the current 
trajectory, it is more likely than not--more likely than not--
that a weapon of mass destruction will be used in a terrorist 
attack somewhere in the world by the end of the year 2013. That 
is not only our assessment, but the assessment of the United 
States Intelligence Community.
    And third, as we have concluded, it is more likely that 
that attack will be with a biological weapon than with a 
nuclear weapon, given the wider availability of biological 
materials and know-how.
    As we learned, the world is at risk. It is at risk because 
of a new era of proliferation of weapons of mass destruction. 
The fast pace of development in the biological field, nuclear 
proliferation, a coming nuclear energy renaissance, and a 
nascent arms race, nuclear arms race in Asia, all conspire to 
increase the risk to the United States and the world.
    While the mandate of the Commission was to examine the full 
sweep of the challenges by the nexus of terrorist activity and 
proliferation to all forms of weapons of mass destruction--
chemical, biological, radiological, and nuclear--we opted to 
center the Commission's finding on those two that we felt had 
the greatest likelihood of mass deaths: biological and nuclear.
    Our report does not sugarcoat this threat, but we are not 
helpless. We believe that our recommendations, if promptly 
adopted, will increase the margin of safety for America and the 
world.
    It is my pleasure to introduce my colleague, Senator and 
Congressman Jim Talent, who will discuss those recommendations 
which will increase our margin of safety.
    [The joint prepared statement of Mr. Graham, Mr. Talent, 
and Dr. Allison can be found in the Appendix on page 57.]

 STATEMENT OF HON. JAMES TALENT, VICE CHAIRMAN, COMMISSION ON 
THE PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND 
                           TERRORISM

    Mr. Talent. Thank you, Mr. Chairman. And I want to thank 
Mr. McHugh for your kind words, and our chairman here on the 
Commission, Senator Graham, who just did an excellent job of 
pulling us all together behind this report.
    I thought when I agreed to serve on this Commission as the 
vice chairman that it certainly could be no more difficult than 
getting the kind of consensus you often get here on the 
committee and we often got when I served on it. And then I 
found out we have nine very strong-minded people who are 
experts in this field, and trying to get them all to agree to 
one thing is difficult. And Senator Graham did a great job of 
getting us there.
    I know when I was in your position I wanted to get to the 
question time as quickly as possible. I am going to be brief 
for that reason and also because Dr. Allison is going to talk 
about much of the part of our report that is in your 
jurisdiction. I have a couple of comments about the threat and 
then about the biological recommendations and about Pakistan, 
and then I will yield to Dr. Allison.
    First of all, we have had a lot of questions about why 
2013. Well, it is our best belief, based on the interviews, the 
review of the material, the travel around the world, that this 
is a near-term threat, not an intermediate-term or long-term 
threat. And that is one of the things we wanted to emphasize.
    We all know that this town tends to constantly defer the 
important in the name of doing the urgent. And the point of our 
report is this is both important and urgent. This is not 
something that may happen 10, 15, 20, 25 years from now. This 
is a near-term threat. And with everything else that you have 
to do--and we know what you have to do--we strongly recommend 
that you keep this as a first-year priority, as you have done, 
by the way, in your oversight and refining and expansion of 
your Cooperative Threat Reduction (CTR) efforts.
    We know that the terrorists want to get these weapons. We 
know that they have tried to get these weapons. And we know 
that they are sophisticated enough, organizationally, to 
develop the capabilities. They don't have to become some new 
order of organization in order to get weapons of mass 
destruction, particularly biological, which is one of the 
reasons we are so concerned about that.
    And we also know that their view of the world--and, 
strategically, they view the world, in many respects, better 
than we do--is driving them in this direction. They understand 
that, for their purposes, the world is really a nexus or a 
matrix of systems--you know, financial, communications, 
transportation--on which we depend more than they do, and the 
links of which are very vulnerable to attack. And they also 
know that, having no national base, the traditional kinds of 
deterrents don't work against them.
    They are also very sophisticated in the concept of 
asymmetric weapons, which you all deal with all the time. And 
it is very logical for them to want to step up the asymmetric 
weaponry at their disposal and their capabilities in that 
regard. And the next logical step for them is to get weapons of 
mass destruction.
    Now, the report's recommendations are organized in four 
areas: biological, nuclear, changing government culture in 
certain respects, and then citizen participation. I am just 
going to talk briefly about biological and Pakistan. We had 
some single-country recommendations, and Pakistan was the most 
significant of those.
    In the biological area, a big concern we have about 
biological is that it is going to be easier for them to develop 
the capability not only to attack with biological but then to 
repeat the attack. They can get the nuclear capability, but, as 
you know, because of the bottleneck of nuclear materials, it is 
hard for them to get enough to put together more than one bomb. 
But once you isolate a pathogen and you are able to develop it 
and weaponize it, it is relatively easy to develop more than 
one weapon. And that gives them the capability to potentially 
hit the same city two or three times in a row. My concern is 
that they might be able to kill an American city doing that 
because they just terrify people so they won't live there 
anymore. That is another reason we think they may be going in 
the direction of biological.
    Now, there is a number of things we need to do with 
biological. Our government regulates the high-containment 
laboratories through three different agencies and a number of 
different regulatory schemes. And we recommend unifying it with 
one agency and having one single set of regulations that 
everybody can understand; and working with the life science 
community to create a greater culture of accountability and 
security within that community, as already exists in the 
nuclear science community.
    We note in our report that the nuclear age began with a 
nuclear explosion. So everybody in nuclear science got it. You 
know, this is a technology that, if it is abused, can be very 
destructive. Everybody in life science, on the other hand, is 
in it for the right purposes. They are all working very hard to 
develop new cures, to make life better, and they are just not 
as conscious of the danger that that technology will be abused.
    We believe that the very act of this Congress passing a 
kind of regulatory reform that you did in the intelligence 
area, for example, although it would be much smaller, is going 
to raise awareness within that community, and that is going to 
be very helpful.
    Internationally--and this is the piece that you all have 
direct jurisdiction over--we need to expand CTR and apply it 
more to biological. You have taken some good steps in that 
direction. We have to secure these materials and these 
scientists around the world better than we are doing. Again, 
the government has been making progress, you all have been 
making progress, the Department of State has been making 
progress, but more needs to be done.
    Pakistan, as we know, it is an epicenter of everything that 
concerns us. It is a nuclear power. It is expanding its nuclear 
weaponry. It is a center for terrorism activity. It is a 
government that has definite characteristics of instability 
that may be penetrated by the terrorists. And it is also 
involved in a tremendous competition with India, which raises 
the prospect of a nation-state perhaps using nuclear weapons. 
So that has to be a priority of American foreign policy and 
defense policy.
    In terms of your jurisdiction, the military is doing a 
tremendous job of working on eliminating safe havens and going 
after the terrorists in various areas in Pakistan. That needs 
to continue. And also we know that the Department of Defense 
(DOD) is appropriately talking in terms of using smart power or 
soft power to complement the hard power already at its 
disposal. And that is a very good thing.
    We talk a lot about it in the report, about the need for 
the civilian agencies of national power, the State Department 
and the other agencies that possess various capabilities, to go 
through the kind of examination and culture change that you all 
helped shepherd the military through beginning in the late 
1940s and then through Goldwater-Nichols.
    And one of the things we wanted to say to you all is you 
need to look and work with your counterparts in the Committee 
on Foreign Affairs about whether DOD ought to develop this 
capability or whether DOD ought to help the Department of State 
and the civilian agencies develop this capability. The danger 
is that, because they need the capability to complement the 
traditional military power that they exercise, and if the 
civilian agencies are slow in developing it, that the 
Department may just develop it because they need it. So, by 
default, it will be resident in the Department. And maybe that 
is the right policy, but maybe it isn't, and the policy ought 
not to be made by default.
    But we think it would be great if the rest of the 
government looked at what has happened with the military, look 
at what is happening with intelligence, and pursued the same 
kind of culture change. And we think Pakistan is a great test 
case, a great place to begin that. Because, without the tools 
of smart or soft power, we are not going to succeed in 
Pakistan. We believe that very strongly.
    Mr. Chairman, I think I am going to end my comments now and 
yield to Graham Allison, whose work and expertise in this area 
is known and is going to discuss CTR and the whole nuclear 
side.
    [The joint prepared statement of Mr. Talent, Mr. Graham, 
and Dr. Allison can be found in the Appendix on page 57.]
    Mr. Ortiz. Dr. Allison.

 STATEMENT OF DR. GRAHAM ALLISON, COMMISSIONER, COMMISSION ON 
THE PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND 
                           TERRORISM

    Dr. Allison. Thank you very much. And it is a great honor 
to have an opportunity to appear before the committee again. 
And it was a great honor to be chosen to serve on this 
Commission with the great chairman and vice chairman.
    I submitted some brief comments for the record, but let me 
try to summarize my points very briefly under three headings: 
first, some good news; secondly, some bad news; and then 
thirdly, an inconvenient question.
    So, the good news. January 1st--to put this in perspective, 
January 1st was the 17th anniversary of the collapse of the 
Soviet Union. January 1st, 17 years ago, the Soviet Union 
disappeared. Emerged Russia and 14 newly independent states, 
with about 15,000 nuclear weapons left outside of Russia and 
about 15,000 weapons inside Russia, under conditions of chaos, 
corruption, confusion. So the question, how many of those 
30,000 nuclear weapons have been found loose somewhere in 
international markets in the 17 years since then? And the 
unbelievable answer is zero--zero.
    If you want to see how unbelievable it is, go back and read 
the transcript of ``Meet the Press'' in December 1991 when the 
question was asked of the then-Secretary of Defense, whose name 
was Dick Cheney, what is going to happen to the nuclear weapons 
in the Soviet Union if the Soviet Union unravels. And he said, 
quote, ``If they have about 30,000 nuclear weapons and they are 
99 percent effective in controlling them, which is more than 
you could expect, that would leave 300 weapons loose.'' And he 
said, with the confusion and chaos of the time, it is hard to 
imagine FedEx would do better than them.
    So how has that happened? I would say a whole lot of 
factors, but, among those factors, a crucial element has been 
the strong support of this committee and the Congress for what 
became Nunn-Lugar and the Cooperative Threat Reduction 
programs. Success always has a thousand fathers and mothers. 
And if tomorrow we found a dozen weapons somewhere in the world 
that were loose, nobody who has worked on the program would be 
shocked. But I think, remarkably, as a combination of great 
work by the Russians, lots of imaginative actions by Americans 
authorized and funded by this committee, and a big chunk of 
grace and good fortune, in any case, something that was almost 
unbelievable that would have changed our world if it had 
happened didn't happen.
    So I would say the good news is this is not something about 
which we should be fatalistic. This is something about which we 
have actually focused on it before, we have done some things, 
those things have had effect. That is point one.
    The bad news: As Senator Graham has already said, a major 
finding, bottom line, of this report is that the likelihood of 
a successful WMD terrorist attack over the period ahead is 
growing, not shrinking. Now, that seems unfair, and, as Senator 
Talent has explained, we have certainly been doing more things. 
You have funded more programs. More people have been more 
active. So how can it be that the problem is getting worse? And 
we say there are two factors that I mention in my testimony.
    First, an adverse trend line in which science and 
technology is relentlessly advancing and enabling more and more 
people with the capacity to kill massively in a form that only 
states could have done previously. So that is the trend line 
that is just there externally.
    And secondly, ineffective policies, ineffective policies 
that leave North Korea with ten bombs' worth of plutonium, 
rather than two at the beginning of the century; Iran with 
5,000 centrifuges, rather than zero at the beginning of the 
century; Pakistan having tripled its arsenal as the state 
became more at risk.
    So the bad news is the likelihood, we believe--and this was 
nine quite diverse Republicans and Democrats on the 
Commission--unanimously agree that the likelihood of an attack 
has been growing, not shrinking.
    So the inconvenient question, finally, that I have been 
troubled about lately--so this is not the Commission report but 
my own reflection as I have been thinking about this after--as 
all of us have watched the collapse of the financial system, 
which this time last year people were assuring us was stable 
and successful, I think most of us have taken a pause from time 
to time to say, ``Do we really understand the systemic risk in 
global systems on which we are dependent?'' I certainly have 
been thinking about that.
    And if I ask myself, is the global nuclear order more 
stable or less stable than the global financial order was this 
time a year ago or two years ago, it looks to me like in the 
same zone and, therefore, to be extremely troublesome.
    So I will stop with that.
    [The joint prepared statement of Dr. Allison, Mr. Graham, 
and Mr. Talent can be found in the Appendix on page 57.]
    Mr. Ortiz. Thank you so much.
    This is scary, to put it one way.
    And I know that the Commission's report highlighted the 
need for increased attention on regional WMDs' proliferation 
and terrorism in nations in Asia and the Middle East and a 
comprehensive strategy for such issues, particularly in 
Pakistan, Iran, and North Korea.
    Now, if you could elaborate a little bit on what type of 
strategy does the Commission recommend, for instance, for 
Pakistan, for Iran, for Korea, would these be new strategies 
that maybe have not been tried before? Maybe you could 
elaborate a little bit on that, if you will.
    Mr. Graham. Mr. Chairman, thank you.
    One of the things that the Commission attempted to do was 
to not micromanage how these policies should be carried out. 
There are going to be very able people now in positions of 
responsibility in the Congress and in the executive branch, and 
it is your challenge to view the facts as they are in time and 
make tactical judgments. So our recommendations are what we 
hope are at the strategic level, primarily focusing on what 
goals we wish to accomplish.
    In the case of North Korea and Iran, our statement is that 
the goal of the United States policy should be the elimination 
of their nuclear program and its ability to become weaponized. 
And then we made a series of general suggestions of how to get 
to that objective: that we should be prepared to engage 
directly with North Korea and Iran; that, in that engagement, 
we should have both incentives and disincentives to offer; we 
should not take off the table, at any point, the use of force 
in the event that diplomacy failed. We think it is very 
important that neither of those states, in the case of North 
Korea, are able to continue to expand their weapons program, 
which, as Dr. Allison said, eight years ago had two bombs and 
today has the capability of ten; and, in the case of Iran, had 
zero nuclear capability eight years ago and today is on the 
verge of enough material to make its first bomb.
    If either of those two countries were to go nuclear, one, 
they would in and of themselves be threatening. North Korea is 
seen as a significant threat to our allies, South Korea and 
Japan. It also would likely trigger a regional escalation of 
nuclear capability. In the Middle East, if Iran goes nuclear, 
it is almost inevitable that Egypt, Turkey, Saudi Arabia will 
seriously consider and likely attempt to acquire nuclear 
capability. So the world will become a much more destabilized 
and dangerous place if that occurred.
    In the case of Pakistan--and let me say the obvious: None 
of these recommendations are easy. If they were easy, they 
would have already been accomplished. But, in the case of 
Pakistan, it is the intersection of every bad thing you would 
want in terms of the likelihood of a weapon of mass destruction 
falling into the hands of a terrorist.
    We think that we have to fundamentally change our approach 
to Pakistan to one of beginning to focus on building the 
institutions that will stabilize the country and begin to drain 
off some of the enmity that is currently being evinced towards 
the United States and Western culture generally.
    We don't think you can solve Pakistan within the boundaries 
of Pakistan. Again, as Dr. Allison said and as Vice Chairman 
Talent underscored, a big part of Pakistan's danger is its 60-
year, 4-war relationship with India. India and Pakistan, as 
well as China, are all rapidly increasing their nuclear 
arsenals. Soon they could well be the third, fourth, and fifth 
largest nuclear states in the world. So, to solve Pakistan, you 
have to look regionally.
    I personally think that the pending appointment, if it has 
not already occurred, of Richard Holbrooke to be the envoy to 
that region of the world is a very positive development and 
that he will take that broad perspective of what we need to do 
to begin to stabilize Pakistan and initiate policies that will 
reduce its current center role as a site for weapons of mass 
destruction and proliferation.
    I will just conclude with the unhappy statement that 
virtually every person--intelligence, military, political--who 
has studied this issue has come to the conclusion that the most 
likely place that the next terrorist attack will be launched 
will be from the Federally Administered Tribal Areas (FATA), 
those uncontrolled territories between Pakistan and 
Afghanistan, again underscoring the centrality of Pakistan in 
terms our efforts to avoid this global catastrophe.
    Mr. Talent. Mr. Chairman, as Senator Graham said, we don't 
want to get really into the tactics on the ground in foreign 
policy because Presidents have to have discretion to respond to 
events, and also there were some areas where, frankly, we just 
really couldn't get a consensus in terms of tactics. And Iran 
and North Korea were that.
    But we anticipate direct engagement by the new 
Administration and said, look, if you do that, your goal should 
be elimination of their nuclear weapon program in their 
entirety; you should negotiate from a position of strength and 
be prepared to use direct action.
    And I am a believer--and Dr. Allison may want to talk about 
this. He talks a lot about the importance of having credible, 
significant carrots and credible, significant sticks. Because, 
to me, it is just common sense that if you want somebody to do 
something, you would be prepared to give them good things if 
they do it and make them understand bad things will happen if 
they don't. And that is probably the best chance we have to 
consistently follow that policy over time.
    With regard to Pakistan, we recommend continuing to 
eliminate the safe havens, which we are doing; expanding what 
are basically CTR efforts to secure the nuclear and biological 
materials, which we have done some of but need to do a lot 
more; and that we engage actively tools to defeat the extremist 
ideology. And here again, we are referring to the tools of soft 
power.
    And I think of it in these terms. I want Presidents to have 
options. So when the new President is considering what to do 
about Pakistan, it would be great if he had the option of 
saying, ``Well, let's use our resident capability of 
effectively communicating messages about our intentions to the 
people of Pakistan so as to cut off terrorist recruiting 
there.'' And I am really glad we have that capability resident 
in the ex agency. And I think that the Department of Defense 
can either develop that capability or be a huge help, as it can 
this committee, in assisting the Department of State in 
developing that capability; also building, you know, local 
economic and grassroots institutions, which requires the same 
kind of capabilities.
    Mr. Ortiz. Would you like to add something, Dr. Allison?
    Dr. Allison. Just briefly, one of the strong lines in the 
report, I think probably written by Chairman Graham, is that if 
you map weapons of mass destruction and terrorism, all roads 
intersect in Pakistan. So I would say that is a big takeaway.
    Secondly, to agree with Senator Talent, we, in part because 
we couldn't agree among ourselves and in part because we didn't 
want to be micromanaging, retreated to what is the normal 
commission style and sometimes even Congressional style, which 
is stating ambitious objectives and then turning it over to 
somebody else to figure out how to do it.
    And I think the hard and unpleasant fact is that the hand 
that the new Administration will inherit with respect to North 
Korea is a country that has ten bombs' worth of plutonium and 
has conducted a test. So it is perfectly appropriate to say 
North Korea should eliminate these, and that should be our 
objective, but it is where it is. So facts on the ground have 
advanced.
    In the case of Iran, our objective should be that Iran 
would eliminate all of its enrichment activity. But, 
unfortunately, Iran has crossed already ten red lines that we 
said they couldn't cross before. It manufactures centrifuges. 
It operates centrifuges. It operates them in a cascade. It 
enriches uranium. So those are facts that will be extremely 
difficult to erase.
    And in the case of Pakistan, I would say the most troubling 
thing for me is that it has essentially tripled its arsenal of 
nuclear weapons over this period, as the state has become 
increasingly fragile and shaky. And, yes, of course, they 
should have fewer nuclear weapons, and they should be stable. 
Over to Holbrooke, I would say, you know, good luck.
    We should notice that the history moves on. And once it has 
moved on, our opportunity to intervene often is among shrunken 
options that are less attractive than what we would have wished 
or hoped or maybe even would have been available if we had 
acted earlier.
    Mr. Ortiz. And I just have one more short question for you. 
I think, in my personal opinion, we are focused in two wars 
that we are fighting now, and there was a tendency by some not 
to engage those countries who were identified as being 
terrorists or groups that were terrorists.
    Do you think that we have done enough diplomatically? 
Should we do more? Should we engage those countries to see if 
we can win them over? What is your idea?
    And then I will yield to my good friend from New York.
    Mr. Graham. I think one of our most fundamental 
recommendations--and it certainly falls into the category Dr. 
Allison just described of where we identified a big problem and 
a goal, recognizing the enormous difficulty of achieving it. In 
my assessment, we have been fighting the war on terror by 
fighting the symptoms of terror: the suicide bomber, the people 
who blew up the buildings on 9/11.
    What we have to start doing is dealing with the root causes 
of terror. Why are so many tens of millions of people prepared, 
apparently, to send their sons and daughters to commit suicide 
on behalf of an extremist cause? What is within our capability 
of trying to reduce that enmity so that our children and 
grandchildren don't live in a world of this enormous hatred? I 
think that is an issue that is worthy of the best minds in the 
United States Congress to work with the Administration to try 
to determine what is a strategy.
    Now, I personally think that, while it is extremely 
difficult, it is not an impossible dream. On a smaller scale, 
it is something that, Mr. Chairman, I imagine you have 
experienced, as have I, given where we come from. Sixty years 
ago, our relations in Latin America were truly awful. The Vice 
President of the United States tried to make a 12-stop visit to 
Latin America in the 1950s and was so abused in the first 2 
stops that he turned the plane around and came back to 
Washington.
    Now, while our relationships in the hemisphere are not 
perfect, they are dramatically better than they were. And that 
didn't just happen by accident. We and our neighbors did some 
things that improved the relations. One of the things, for 
instance, was thousands of young people from Latin America 
decided, rather than staying home or going to Europe, they 
would come to the United States to get their education. And so 
now the President of Colombia happens to be a graduate of the 
Kennedy School. So he knows America not by a two-dimensional 
cardboard cutout image, but by the flesh and blood of the 
people he has actually dealt with.
    I cite that as an example of a major challenge that we, I 
think, can take pride at the progress that we have made. And I 
hope that the people who are sitting in your chairs two 
generations from now will be able to say that we have made some 
significant progress in improving our relations in the part of 
the world from which many of our most significant threats are 
now emanating.
    Mr. Ortiz. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    And again, gentlemen, thank you so much for being here. 
Such an extraordinarily important topic.
    Dr. Allison, I heard your comments about the nuclear 
arsenal in Pakistan. I am curious, what is your assessment of 
the command and control of the security of that arsenal right 
now?
    Dr. Allison. I would suggest that the committee would 
appropriately look at the National Intelligence Estimate (NIE), 
and you might want to ask that in a closed setting to folks 
from the Intelligence Community.
    But I think, from the public record, what has been said and 
what I believe and what we say in the report, is that U.S. 
assistance, as well as Pakistan's own efforts, leave the 
nuclear arsenal itself in better shape than it was, say, some 
number of years ago, especially before the A.Q. Khan episodes, 
with more question marks about the nuclear weapons-usable 
material in the laboratories at some facilities like the 
facility that A.Q. Khan was the director of.
    That is for the technical systems and for the personal 
systems in which the Army plays the crucial role. But the 
counterpart to that, which I think you can get to by logic, is 
if the state itself becomes shaky or even unstable or perhaps 
even comes apart, those systems don't magically control stuff. 
The systems mostly are incorporated in people. And I have told 
several times at the Commission, I have been extremely 
interested in this question for a long time and have talked to 
Musharraf about it three or four times on separate occasions. 
And the agency had him as a visitor at Harvard for a couple of 
days. And he said, ``Don't worry, everything is under 100 
percent control, it is not conceivable that something could be 
lost.''
    And on one of these occasions, he had, just two weeks 
before, come within a second and a half of being assassinated. 
And the prevention of the assassination was only possible by 
some technical assistance from the U.S. Government. So I said 
to him, how likely is it that your nuclear weapons are more 
secure than the president of the country?
    Mr. McHugh. Let's take that a step further because I agree 
with you. While you can asses the command and control of those 
weapons stockpiled now and assess them to be relatively secure, 
they really are dependent upon the security and stability of 
the government.
    What we hear from Pakistan is their actions in the FATA 
have the potential of undermining the stability of the central 
government. And as we have seen this aggressive and then less 
aggressive posture, in part that has been driven by domestic 
politics, as policies are here.
    To what extent can we count on the Pakistani Government to 
rid the FATA of those threats that cause this Commission to say 
all roads of terror lead to Pakistan, or all roads of potential 
WMD, without disrupting that balance that would cause the fall 
of that government and then, down the chain, call into question 
the security of the stockpile?
    Dr. Allison. I would say, for my nickel, you are absolutely 
on the bull's-eye. And when one looks at the complexity of 
Pakistan and the fragility of the political system--as one of 
my friends who knows Pakistan very well says, there is only one 
load-bearing institution in Pakistan, and that is the army.
    So the political system is extremely fragile. The 
differences among people are quite large. The population's 
views about the War on Terror and even the activities in the 
FATA is that this is doing Americans a favor. That is not the 
universal view, but that is the majority view.
    So trying to balance, on the one hand, the motivation and 
cooperation required to prevent Al Qaeda from reconstituting 
its operations in ungoverned Pakistan, which is totally 
unacceptable from an American point of view I believe, and 
without, on the other hand, contributing to the instability in 
Pakistan has been the dilemma in the policy for some period of 
time.
    Now, as Chairman Graham said--and the Commission debated 
this at some considerable length--for quite a long time--again, 
now, this is just from what the newspapers report--for quite a 
long time, the U.S. did not attack Al Qaeda in ungoverned 
Pakistan. And only last summer did the Predator program become 
active again, if we read the newspapers. And since then, there 
have been quite a lot of attacks, including a number of Al 
Qaeda operatives killed, including one of my favorites, a 
fellow named Hatab, who was the head of their nuclear and 
biological program.
    So, is this stressful for Pakistani politics and the 
society in which one country is operating militarily inside 
another country without its approval? Indeed, it is. It is 
extremely. On the other hand, if the alternative is to allow 
the reconstitution of headquarters and training camps for Al 
Qaeda, excuse me, that is what happened in Afghanistan before 
9/11 and for which we say shame on us. So I think that balance 
is extremely difficult.
    And I think the new President of Pakistan, you know, sort 
of is struggling with that every day, as is the American 
Ambassador, as is whoever is going to try to formulate American 
policy in the next phase.
    Mr. McHugh. If those attacks, if those attacks are 
happening by U.S. policy, you would agree you have to be 
extraordinarily careful not to cause the downfall of this 
relatively stable government, at least for the moment?
    Dr. Allison. Absolutely. And, again, the fact is that one 
can read about things going on in the newspapers. One would 
wish that there were things that went on about which you 
wouldn't read in the newspapers. But I would say that is maybe 
history. I would prefer such a situation, but I think that if 
and when an attack occurs in a village in Pakistan, killing 
some foreigners who were there, the Pakistani press reports it 
and the American press reports it, and it has the 
reverberations in Pakistani politics that you suggest.
    Mr. McHugh. One last question for any of the panelists. I 
remember Henry Kissinger, who was somewhat excoriated during 
his career, said that the potential of the force of the United 
States military has to be kept on the table in defending the 
oil fields, which were critical to our economy and our way of 
life. And without getting back into that debate, as I read the 
Commission's report, the ultimate potential of military force 
must be reserved against Iran and North Korea. Unfortunately, I 
couldn't agree more. And I say ``unfortunately'' because that 
is obviously a place we would prefer not to go.
    However, I would be interested in you gentlemen's 
assessment of how other important nations in that equation, 
particularly Russia et al., might view that kind of 
recommendation.
    Mr. Graham. If I could use your question to talk about that 
and the issue of Russia generally, between Russia and the 
United States, we control over 95 percent of the nuclear 
material on earth. So a positive relationship on this issue of 
security of nuclear material and hopefully a strengthened 
relationship on security of biological material is critical.
    We visited Russia in September of last year. I was 
concerned that our visit would be terminated because we 
couldn't get visas to go into Russia. This was shortly after 
the invasion of Georgia; tensions were high between our two 
countries. We did get visas.
    Then I was concerned that we would meet a very hostile 
group of Russians. Quite to the contrary. The recurring theme 
was, yes, we have some serious issues between us--Georgia, 
North Atlantic Treaty Organization (NATO) expansion, missile 
defense--but that is going to be the pattern when two large 
countries are living in the same global space. But we 
understand that there is one thing that we have in common, and 
that is a responsibility to our people and to the world to 
protect all this nuclear material that comes under our control. 
And they reiterated, we are as committed to this as we were 
prior to this current set of disagreements. And that statement 
was confirmed by our embassy and by our United States 
Department of Energy scientific personnel who are in Russia, 
whose purpose it is to oversee what the Russians are doing 
relative to nuclear security.
    In our report, we made a recommendation that we needed to 
communicate to the rest of the world that this relationship on 
nuclear security had not been breached. And we made several 
suggestions of how we might do that.
    One of the suggestions came from a personal experience that 
I had had in Pakistan as chairman of the Senate Intelligence 
Committee when we met with representatives of the Pakistani 
Joint Command and I asked the question, what controls do you 
and the Indians have in place to avoid an accidental nuclear 
launch? The answer was, virtually none. There was no and is no 
equivalent of the red phone that was symbolic of our efforts 
during the Cold War with the Soviet Union.
    So one of our recommendations is that Russia and the United 
States together could serve a very valuable function for the 
world to work with Pakistan and India and try to encourage them 
to adopt those kinds of fail-safe and mistake-containment 
policies that worked so well for us for the better part of 40 
years.
    So I think Russia is a very critical part of this equation. 
And we need to continue to work to see that, whatever disputes 
we may have, that they don't leak out and infect our common 
responsibility of nuclear security.
    Mr. McHugh. Thank you, Mr. Chairman.
    Either of the two gentleman, Dr. Allison, Senator Talent?
    Dr. Allison. Just a quick footnote on Bob Graham's point. 
As a result of the Bratislava agreement, which was between 
President Bush and President Putin in February of 2005, so just 
the beginning of President Bush's second term, they developed a 
recipe in which the two Presidents took personal responsibility 
for the nuclear terrorism threat at the top of the agenda.
    They agreed on a work plan for securing to a defined level 
called comprehensive upgrades 75 percent of Russian nuclear 
weapons and material, which were all the ones they would let us 
work on, everything except for the jewel boxes that they work 
on mostly themselves.
    People were identified as the lead responsibility for this 
issue, including Sam Bodman for the U.S. and his Russian 
counterpart. And they had to report to the two Presidents every 
six months on how they were doing.
    So, with all of the back and forth in Russia, what then 
happened? And I would say it is a great good-news story. In 
December, Secretary Bodman reported, and President Bush then 
announced, that all the weapons and materials, which are about 
75 percent of Russian weapons and materials, in the work plan 
had been completed over that period of time.
    So that is part of the National Nuclear Security 
Administration (NNSA) activity in particular that this 
committee has supported and examined and overseen and funded, 
or authorized. And I would say, again, it is another part of a 
good-news story as an example.
    Mr. McHugh. Thank you.
    Mr. Talent. I think you have to distinguish between when we 
are dealing with countries whose objectives at least basically 
are similar to ours and those who at least we suspect have 
objectives that are not similar to ours.
    And the traditional tools we have--diplomacy, public 
assistance, military power, the international regime as it is 
now constituted--I think if we use those tools effectively and 
consistently, they are probably good enough in dealing with the 
first class of countries that basically want what we want at 
the end of the day, but we may just have difficulty dealing 
with them. And that is most of the countries, including Russia 
in the context of this kind of a problem, because they really 
don't want proliferation of these materials, we think.
    But you are going to have some regimes which may have more 
aggressive objectives or just may be very, very difficult to 
predict, like the North Koreans or the Iranians. And the burden 
of our report is that it is clear, in dealing with those 
governments, we have to expand the options and the capabilities 
that any President has at his or her disposal to be able to 
deal with those countries. I mean, diplomacy as traditionally 
constituted, foreign assistance--I mean, it is fine; it just 
doesn't do the trick.
    And so, for example, we suggest strengthening the 
International Atomic Energy Agency (IAEA), better funding, 
better technology because it is being overwhelmed, a range of 
penalties that effectively shift the burden of proof for a Non-
Proliferation Treaty (NPT) violation, so that countries like 
this have to show the international community that they are 
complying instead of playing some kind of Perry Mason game over 
years where, you know, they have a pretense of complying and we 
accept the pretense because it is hard not to.
    And then what we talked about before, developing these 
capabilities so that a President has the option of saying, in a 
place like Pakistan, well, look, let's do something about how 
we are viewed in Pakistan by helping build local institutions 
of democracy and economics and good public relations campaigns 
like you all have to conduct every two years if you want to be 
here, right? I mean, develop those capabilities so that the 
Pakistani Government can be seen as helping us without becoming 
less stable.
    A theme through the report is that this game is about, in 
part, increasing resident capabilities so that Presidents have 
a wider range of options in dealing with the hard cases.
    Mr. McHugh. Thank you.
    Thank you gentlemen.
    Mr. Chairman, I will yield back.
    Mr. Taylor. [Presiding.] Thank you.
    We would like to remind the newer members that, by 
tradition, the chairman and the ranking member are not limited 
by time; everyone else is.
    We will now recognize people in the order that they were 
here at the gavel, and we will strictly enforce the five-minute 
rule.
    Dr. Snyder from Arkansas for five minutes.
    Dr. Snyder. And of course those of us who are not the 
chairman or ranking member sometimes wish that that tradition 
changed, but, you know, we are all supportive of tradition.
    I appreciate you all being here. It is great to see you 
all.
    Senator Graham, you look great. You and I had some doctors 
cut into our chests about the same time some years ago, and I 
haven't seen you since then. And you look like you have been 
spending some time in Florida, and that is great.
    Dr. Allison, I wanted to ask you, I don't know who Douglas 
Dillon was. Who is Douglas Dillon?
    Dr. Allison. Douglas Dillon was the Secretary of the 
Treasury in John F. Kennedy's administration. And a famous New 
York investment banker, Dillon Reed, was part of that same 
family. And they gave a professorship at Harvard, to which I 
have the great honor to be the Chair, that I have the honor to 
sit in.
    Dr. Snyder. I think I had to memorize that name in my 
civics class.
    Mr. Talent. Congressman, if I could say, this is an example 
of the role Dr. Allison played on the Commission. He was to our 
commission what the professor was to the other people on 
Gilligan's Island. You could ask him anything, and he had the 
authoritative answer.
    Dr. Snyder. Senator Talent, you are taking part of my five 
minutes now.
    Mr. Talent. That rule, by the way, in the Senate is honored 
in the breach. Maybe the chairman will give you another 15 
seconds.
    Dr. Snyder. I also appreciate all the efforts that Evelyn 
put into this.
    I wanted to ask--and I did read the report. You did not 
dwell very much on why you did not discuss chemical weapons. 
You talk about the availability--I think you did probably most 
detail here today--the availability of nuclear weapons, even 
the smaller nuclear weapons. Obviously, there are millions of 
chemical weapons that are out there. I don't think some people 
would be--I don't want to say dismissive, but I think some 
people would have included that in the topic.
    If you all would respond to that, anyone.
    Mr. Graham. First, you gave us six months to do this 
report. So we had to make some decisions in order to be able to 
focus our time and staff resources in sufficient depth to make 
quality recommendations where we thought necessary.
    Second, we felt that the likelihood of a chemical weapon 
achieving the levels of lethality which a biological or a 
nuclear could was limited.
    Third, we have had a lot of experience with chemical 
responses. An anhydrous ammonia tank truck falls off the 
railroad track, punctures, and creates a serious situation in 
the neighborhood. We know how to respond to that because we 
have done it over and over and have minimized the consequences. 
We have never dealt with a nuclear or biological attack and the 
consequences that that may cause.
    So we did not mean to denigrate the importance of chemical 
or radiological or other possible weapons of mass destruction. 
We felt we could be of the greatest service by focusing on 
these two areas that we thought were the most likely to be able 
to result in massive deaths.
    Dr. Snyder. Another question I wanted to ask, with regard 
specifically to your comments in the report about Iran, I think 
you choose your words very carefully and are very clear in the 
report that you do not want Iran to have any nuclear weapons 
program.
    I take it from the language that you used that you do not 
have a problem with Iran having a nuclear power program if it 
has the kind of controls that you envision. Is that an accurate 
statement?
    Mr. Graham. Yes. Although I will say that on the Commission 
there were people who were concerned about almost any expansion 
of civilian nuclear because of the potential for perversion.
    Dr. Snyder. But your report specifically only says nuclear 
weapons.
    You mentioned--my time is winding down.
    Mr. Graham. And let me say, Dr. Allison uses the term 
``lease.'' The arrangement that the Iranians have with the 
Russians--and we discussed this at some length when we were in 
Moscow--is that Russia will provide the uranium necessary to 
operate its civilian reactors. And that is the beginning of an 
international bank of nuclear material. And then, when the rods 
are used, Russia will take them back. So, essentially, Russia 
is leasing the nuclear material to Iran, which we think goes a 
long way to pacifying the concerns about proliferation into 
inappropriate areas.
    Mr. Taylor. The chair thanks the gentleman from Arkansas.
    We now recognize the gentleman from Maryland, Dr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Thank you gentlemen for your service and for your testimony 
today.
    Dr. Allison, you gave a good discussion of the dissolution 
of the Soviet Union and the potential availability of nuclear 
weapons.
    General Lebed, before this committee several years ago, 
told us that there were about 80 of the suitcase bombs 
developed by the Soviet Union that were loose somewhere. That 
is also your general understanding?
    Dr. Allison. This is--it is hard to give a short answer, 
but this is a topic I have been extremely interested in. I 
served as Assistant Secretary of Defense in the first term of 
the Clinton Administration when, with thanks to Nunn-Lugar and 
the Cooperative Threat Reduction program that you all 
authorized, we were dealing with this.
    I remember when Lebed made this comment. I have tried to 
trace this story down. I actually, in the book that I wrote in 
2004 called Nuclear Terrorism: The Ultimate Preventable 
Catastrophe, advanced the story somewhat.
    My current best belief is as follows: There were such 
weapons. They were not uniquely identified with a code number, 
so that they--particularly the ones produced for the KGB. Most 
of the weapons were collected and destroyed. There may be some 
of those weapons continued to be missing, but the unbelievable 
good news is we have been looking for them pretty hard and we 
haven't found them in 17 years.
    So, each year, as it goes by, it seems to me more and more 
likely that we may have succeeded in doing something that I 
think we couldn't conceivably succeed in doing. So I am 
schizophrenic.
    Mr. Bartlett. So that is one potential source of a nuclear 
weapon for a non-state actor.
    Dr. Allison. And just one more thing. Excuse me. There was 
an occasion that, again, I think we report in the Commission, 
in 2004--it is either in our report or in the 9/11 Commission 
Report--in 2003 or 2004 in which there were serious discussions 
occurring among Al Qaeda types about buying four of these 
weapons, which weapons were never found.
    Mr. Bartlett. Do we know the origin, the destination, and 
the cargo of all the ships in the North Atlantic shipping 
lanes?
    Dr. Allison. No, sir.
    Mr. Bartlett. Okay. I understand that you can buy a Scud 
launcher on the world's open market. A Scud launcher? I think 
that is true, that they are available on the world open market.
    So now a terrorist can potentially buy a weapon, a nuclear 
weapon. He can get himself a tramp steamer, and he can have a 
Scud launcher on deck, and if he throws a tarp over it, you 
don't know whether it is baled hay or a Scud launcher 
underneath because you can't see through the thinnest thing 
like that from space.
    So now you are a terrorist and you have this nuclear weapon 
off our shore. Could we, of a certainty, take out that missile 
if he fired it at us today?
    Dr. Allison. I think that none of the missile defense 
systems discussed do very well against cruise missiles, so----
    Mr. Bartlett. I think the average citizen doesn't 
understand that. They think we are protected. Thank you for 
your answer. We certainly are not protected. I think the 
probability of taking one out is very, very small.
    So now you are a terrorist out there with this weapon. What 
are you going do with it? You can do two things with it: one, 
try to drop it on New York City, but, gee, you don't have a 
very good launcher there, and you don't have much precision; 
you might miss. The other thing you could do with it is launch 
it extra-atmospherically and produce an electromagnetic pulse 
(EMP) laydown.
    Which of those, even if you could hit New York City, which 
of those would provide the most harm to our country? I think, 
of a certainty, the EMP laydown, because it could take out the 
whole Northeast, which would be Katrina in at least an order of 
magnitude larger.
    I am very much concerned, members of the Commission, that 
we have essentially no ability to protect ourselves against 
such an attack or to recover in any seemly way from such an 
attack. Am I wrong?
    Dr. Allison. No, you are not wrong, but if I could put it 
in perspective just for a second.
    If I imagine a terrorist with a nuclear bomb, let's say he 
gets one of Lebed's suitcase bombs, and he asked himself, how 
can I do the most damage to the U.S.? So this is Mr. Osama bin 
Laden. So he has to think about, how do I get this weapon to 
the target and how do I explode it.
    The number of ways in which illegal things come to New York 
City or Washington or Los Angeles every day--I have a chapter, 
actually, in my book, which I will send you, about this where 
it says, let me count the ways. Okay? Every way that illegal 
drugs come to your city, that is precisely the same way a bomb 
could come. As one of my colleagues says, who has been 
chancellor at the University of California, Los Angeles (UCLA), 
if you have any doubt about terrorists' ability to bring a bomb 
to an American city, remember, they could always hide it in a 
bale of marijuana, which we know comes through American cities. 
So the most likely track is the same way that illegal people 
and illegal drugs and other illegal items come to American 
cities.
    The likelihood that the terrorist not only gets this bomb 
but also a missile, which is now another hurdle--it is not 
impossible, but--and especially a missile that is an 
Intercontinental Ballistic Missile (ICBM), so he has to get to 
the atmosphere--that is another hurdle, not impossible--I say 
you get further down the chain.
    And the last thing to say about missiles is that they have 
one fatal flaw: They leave an unambiguous return address.
    Mr. Taylor. The chair thanks the gentleman from Maryland. 
Now recognizes the gentleman from Washington State, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you gentlemen for your work and for this 
presentation.
    We have a lot of programs in this area and a lot of money 
being spent. And you make a number of recommendations in a 
bunch of different areas, but I am going to try to narrow that 
down a little bit.
    Two questions. One, where are we spending money on counter-
proliferation or nonproliferation or any of these things that 
you took a look and said, you know, that is not really working, 
that is not helping, that is an area that we can shut down and 
put the resources in a different direction?
    And second, what are the one or two areas--and you 
mentioned about a dozen different ideas in a number of 
different departments, from the Department of Health and Human 
Services (HHS) to Homeland Security, Defense Threat Reduction 
Agency (DTRA), a lot of places--but what are the one or two 
where you are saying, that is where we are getting the most 
bang for our buck?
    Sorry, I am a little back from the microphone. Let me try 
that again.
    So the two questions are: one, what are the areas where we 
are spending money that we shouldn't be, it isn't really 
working? And, two, what are the one or two areas where you go, 
this is really working?
    Because the bottom line here is there is no magic solution 
to this problem. I mean, when you think about the number of 
biological weapons that are out there, the number of people who 
are working on them, we cannot wrap our arms completely around 
this problem, either on the biological or the nuclear side.
    But there are some things that are working better than 
others, I am sure. And it would be helpful for us on the 
committee to know, you know, if you only have one place to put 
it, here is the place to put it because it is really making a 
difference.
    Mr. Graham. One of the things that this committee 
recognized when it passed the same bill that contained our 
commission was that there isn't anybody who has the 
responsibility of answering the two questions that you have 
just asked.
    Your directive was that there be a person in the White 
House whose sole responsibility was the issue of weapons of 
mass destruction and proliferation. That is a position which 
has gone unfilled, in large part over a debate as to whether 
that position should be Senate-confirmed or traditional White 
House staff directly responsible solely to the President.
    We think, and one of our recommendations is, that position 
needs to be created and it needs to be filled. I am pleased to 
say that candidate Barack Obama indicated his support for that 
proposition. When that is in place, when that person is in 
place, we should have someone who can look specifically at the 
question.
    Now, in answer to your question, I would say that one area 
that cries out for greater attention is the biological area. We 
have been focused largely on nuclear. And I have looked at the 
authorization list from this committee, and it is a big list, 
almost two billion dollars, heavily oriented towards the 
nuclear side of the equation. Our conclusion was the greater 
threat is biological.
    Mr. Smith. And is there a particular place right now that 
is doing biological work, an agency or entity where we should 
be focusing those resources?
    Mr. Graham. Well, there are lots of places which are 
currently doing it, and that may be both part of the solution 
and part of the problem, is the lack of clarity of 
accountability for this effort.
    I don't think it is appropriate for us to be telling the 
next President or telling the Congress which agency is most 
competent to do it. But we would say you ought to decide on 
somebody.
    Mr. Smith. Senator, I think it is appropriate for you. I 
mean, you spent six months studying this, and you are very, 
very smart people. I think it is perfectly appropriate for you 
to say, this agency works better. If it is not in the report 
and it is a conclusion you couldn't get to, that is fine. But 
is seems to me like, right now, you are the guys who would know 
best.
    Mr. Graham. Well, you know, I think that this is 
essentially a science issue, and, therefore, I would personally 
be inclined to try to put it into the agencies such as the 
Centers for Disease Control (CDC) with mandates to come up with 
better procedures to quickly identify the nature of the attack, 
to establish systems to report that an attack is under way.
    Here in the Washington, D.C., area, for instance, there 
probably are, what, 25 or more hospitals. If each one of those 
hospitals had 5 or 6 people come in over a 24-hour period with 
a particular, rather exotic symptom, they might think, well, 6 
people happened to get sick. But if they knew that the same 
number had come up at 24 other places, they might say, this is 
more than just a series of coincidences; something systemic is 
happening.
    We don't think we have the capability, and I believe that 
an agency like the CDC would have the potential to assign the 
responsibility to figure out the science and the means of 
applying the science at an operational level.
    Mr. Taylor. The chair thanks the gentleman from Washington 
State. Would now recognize the gentleman from Virginia, Mr. 
Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank you gentlemen for being here. And as has been 
mentioned, we appreciate your expertise and knowledge. This is 
an incredibly complex area.
    Senator Talent, in your opening remarks, you addressed the 
date issue, the 2013, and indicated to us that people had asked 
you why you picked that particular date. Was there some 
calculus that went into 2013? Or was 2013 simply, as you kind 
of indicated, to show that it was quicker rather than later? Or 
did 2013 have a significance?
    Mr. Talent. It was not like we had a piece of intelligence, 
classified or unclassified, saying, oh, they are planning 
something now that is going to happen in 2013.
    But it was our evaluation, if you look at the acceleration 
of the availability of this material, if you look at what we do 
know about their intentions and the increasing priority that 
they are giving to this, that the probability rises above 50-
50, we think, within the next 5 years.
    And, obviously, it is an estimate based on, you know, the 
experience we each had and the material we reviewed. But it is 
an estimate and a belief that is reflected pretty 
comprehensively within the Intelligence Community, as the 
Director of National Intelligence's (DNI's) comments a couple 
of weeks after we issued the report indicate.
    Mr. Forbes. And I don't want to press you on this. I am 
just trying for my own understanding. But there was basically 
some calculus that you used, whatever that calculus might have 
been, to get 2013 as opposed to 2011 or 2015, I would take it? 
Is that a fair statement?
    Mr. Talent. Yeah. I mean, it wasn't so precise. Could we 
have said four years or six years? Yeah, I mean, it is just a 
gut. You have to pick a point. And we knew it was near-term, 
and we picked 2013.
    Mr. Forbes. In that calculus, however vague it might have 
been or specific, does the probability of such attack increase 
as you go further out in terms of the date? So, in other words, 
is it more likely in 2015 than in 2013? Was that a part of 
this?
    Mr. Talent. Yeah, because the trends are not going in the 
right direction. So, unless they are reversed, which we think 
it is very possible to do, or unless there are changes, either 
because of some conscious policy or something happens that is a 
break for us, then we are not going in the right direction. So, 
yeah, I do think it increases.
    Now, I think what is hard to say about that at any given 
time--and, to me, the wild card in this--people say, why 
haven't you been attacked? And I think we have made a lot of 
progress in the Intelligence Community, because--I have been 
talking about resident capabilities--I think those capabilities 
are growing in that community. And my hope is that that this 
trend, this growing capability will increase. In other words, 
the rate of growth will get faster and faster.
    So, to answer Mr. Bartlett's question, what is our defense 
against the terrorists doing this? It is true we don't have the 
passive defense, but we are getting better and better at 
finding out that that is the plan and getting them before they 
can do it. And I don't know how fast that capability will grow.
    Mr. Forbes. Nor their capability or our capability, either 
one. But I think whatever it is, this complex mixture of good 
and effective carrots and sticks that you were talking about, 
at some point in time, if you guys come back on January 22, 
2017, and we haven't had an attack, we will say we had a good 
mix, as opposed to not having a good mix.
    Take that same calculus back to January 22, 2001, if you 
would. If you use that same calculus, what would you have 
picked as a date when you might have had an assumptions that we 
might have had a weapons of mass destruction attack? Did you 
ever look at that particular calculus? If you did, what would 
that date have been?
    Mr. Talent. We certainly didn't formally. I think we might 
each have a gut. I don't know that I would even want to hazard 
a guess because we didn't look at that systematically. And we 
have tried to be--you know, you walk a line with this sort of 
thing between you want to be very direct, never say anything 
that you don't believe, but at the same time not speculate too 
much because, in a subject like this, that will cause a bunch 
of the speculation and comments and consequences that may be 
negative.
    So I don't know that I would want to hazard a guess, but 
Dr. Allison might. I mean, he has been studying this for a long 
time.
    In other words, you know, what would you have said as of 
2001, I guess he is asking.
    Dr. Allison. I think the question--our answer is there is 
not a well-established scientific methodology for picking more 
likely than not or 51 percent as opposed to 42 percent; 
similarly for the time frame.
    So I think, in January of 2001, people who had been 
studying terrorism--the center that I run at Harvard, we had 
published four books on this subject--were predicting that 
there would be a major terrorist attack on the American 
homeland. That was not an uncommon view in some parts of the 
U.S. Intelligence Community but was certainly not the broad 
consensus view.
    And, actually, when I had been assistant secretary of 
defense, I had written a memo on ``A Hundred Horribles'' in 
which a 9/11-like attack with airplanes was just above the 
halfway mark. So there are a lot of things worse than that.
    In the period since then, we also know that at least one 
biological terrorist attack on the New York subway was in train 
and was interrupted.
    Mr. Forbes. Doctor, I am sorry, my time has expired. If you 
could just give me that in writing.
    Mr. Taylor. The chair thanks the gentleman. The chair now 
recognizes the gentlewoman from California.
    Ms. Tauscher. Thank you, Mr. Chairman.
    I want to thank my colleagues, Senator Graham, certainly 
Senator Talent, and my old friend Graham Allison, for your very 
diligent work.
    As the chairman of Strategic Forces over the last couple of 
years, I have led many congressional delegations, working on 
our area of jurisdiction. We have the National Nuclear Security 
Administration, the NNSA; we have missile defense. And, 
certainly, the last couple of trips we have taken, I think, 
have been very informative, certainly going to Pakistan in 
September, where we met with General Kiyani and General Kidwai, 
who are nominally and specifically in charge of the army and 
the nuclear weapons complex in Pakistan.
    And to direct my comments to my great colleague, the 
ranking member, we have a lot of work to do. We have done a 
lot. Certainly, in early 2000 when India and Pakistan came to 
blows over Kashmir, the United States directly intervened, with 
our friends at the NNSA, to make sure that they had the kind of 
nonproliferation and other things that we have in the United 
States to assure that their stockpile would be safe.
    But there is nothing we can do about the political 
instability in Pakistan. And, ultimately, that is the way we 
safeguard these weapons, is to make sure that that country has 
political stability. And no one can assure us, certainly in the 
short term, that it will.
    In December, I led another congressional delegation to 
Russia, where we have an enormously complicated relationship. 
As I said at the time, especially in the intervening time since 
Georgia, you can't go back to business as usual, but we have 
business to do.
    And this is a very illuminating hearing. We have a lot of 
different critical issues to work on. But what I want to 
specifically ask the members of the Commission is that the 
Strategic Arms Reduction Treaty (START), which, as you know, 
expires at the end of 2009, has been enormously valuable in the 
verification process. And with the kind of relationship we have 
with Russia right now, which is not the best, but with the new 
Administration that promises more engagement, what you 
recommend is something that I have recommended, which is that 
we extend START for the short term.
    What I am really interested in understanding is, would you 
say that we just push START forward as START is? Should we work 
to do what we call sometimes a better START or a START Plus? 
And where are those areas that you think we should concentrate 
on?
    And secondly, if you can briefly touch on the question of 
the Comprehensive Test Ban Treaty (CTBT), which I have 
advocated for a long time that we ratify. And can you please 
just describe what you think the benefits of ratifying the CTBT 
would be?
    Thank you.
    Dr. Allison. Just briefly, I think Ronald Reagan's mantra 
was ``trust but verify.'' And there was a bit of peculiarity in 
which we have been interested in less verification than the 
Russians. I regard that as odd, from my history as an old Cold 
Warrior.
    So I would say, even though there is a lot of--or some of 
the elements of the verification system may have been outmoded 
and we may be able to move on, I would say keeping it more or 
less is better, and especially if one worries about scenarios 
in which our relationship with the Russians may be worse rather 
than better.
    With respect to going beyond START and Strategic Offensive 
Reductions Treaty (SORT), I would think moving another 
significant step to some number like 1,500 or even 1,000 would 
make good sense in the next round of START Plus.
    And with respect to CTBT, I think the debate that got aired 
over that in the Senate needs to be re-examined because the 
mechanisms for verifying that people are complying with the 
Comprehensive Test Ban Treaty have improved significantly.
    And I think when people look at them, they would judge, as 
I believe that there is a strong view of--this is not a 
Commission view, but a broad view--that CTBT would actually 
constrain other people a whole lot more than it does us and, 
therefore, would be to our advantage.
    Ms. Tauscher. On the way back from Pakistan, we stopped in 
Vienna to see Secretary General ElBaradei. And I think the 
issue of nuclear fuel banking, something that I have advocated 
for a long time, is now coming to fore, certainly between 
Russia and Iran. But clearly the IAEA is underfunded, has been 
chronically underfunded for a very, very long time.
    Chairman, can you talk briefly about what you think we can 
do to gain international consensus to increase their funding, 
give them a bigger mission and more teeth?
    Mr. Graham. Well, first, the United States needs to be 
certain that it is meeting its obligations. I, at one time, was 
Chair of the Nuclear Subcommittee of the Senate Environment and 
Public Works Committee, which has jurisdiction over things like 
the Nuclear Regulatory Commission (NRC). And we hadn't paid our 
dues to the IAEA for several years. That has now been overcome.
    But one of the tendencies that the international community 
has gotten into is that, rather than deal with the base budget 
of the IAEA, we do all these special assessments whenever there 
is a new problem. That is a very unstable financing for an 
organization that has to make long-term commitments. You have 
to be able to----
    Mr. Taylor. Senator, I am sorry, but we are trying to 
adhere to the five-minute rule. Could you supply the rest for 
the record?
    Mr. Graham. I would say that this committee would be well-
served to take a serious look at not only the amount of funding 
for the IAEA, but the way in which we have gone about funding 
and how the United States can lead the international community 
in strengthening both of those components.
    Ms. Tauscher. Thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor. The chair thanks Mrs. Tauscher.
    The chair now recognizes the gentleman from South Carolina, 
Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Commission members, for being here today.
    Senator Graham, I particularly appreciate all of you trying 
to alert us to an event that has not occurred. It is so 
frustrating, but it is so important that we celebrate hopefully 
a non-event.
    And, additionally, I want to thank Senator Talent for his 
explaining the urgency of what we are facing.
    And then, Dr. Allison, as a fellow Cold Warrior, I 
appreciate your referencing the 17 years of success in 
nonproliferation with Russia and the 14 now-independent states. 
And so there can be success. And we should be ever vigilant, as 
Congressman Bartlett pointed out, but, to me, that is a real 
extraordinary success.
    But my concern, and you all referenced it, is biological 
terrorism. Given the information in the report, should 
pharmaceutical companies sharing toxins such as botulinum with 
Iranian scientists and Iranian universities reconsider their 
relationships? And further, should the United States do more to 
discourage a relationship between pharmaceutical companies and 
Iranian researchers?
    Mr. Graham. I guess the answer is yes. We think that one of 
the most significant components of this escalating biological 
threat is when the capability to produce pathogens falls into 
the hands of rogue states and terrorist organizations.
    And the United States has some controls in terms of the 
transmission of materials and scientific knowledge, but given 
the reality of what is happening, they are not sufficient to 
the challenge.
    Mr. Talent. If I could add to this, and this would be 
responsive to a question Mr. Smith had that I was going to 
answer but the time ran out.
    The biological area here in this report, I think, is the 
lowest-hanging fruit in the report for the Congress. And we 
need better, more consistent, more unified regulations. And 
this area ought to be within a single agency. I think the 
Commission would say the Department of Health and Human 
Services (HHS) or the Department of Homeland Security (DHS); 
you guys decide. I probably would prefer DHS, except I don't 
have confidence in DHS's ability to do anything. But, I mean, 
if they could do something, this is probably something they 
ought to do.
    And we need changes within that research community and 
their approaches, certainly, which is the thing that you are 
mentioning as well.
    Mr. Smith also mentioned, what don't we need? We recommend 
collapsing the staff of the National Security Council (NSC) and 
the HSC, among other things, because we think that all they are 
generating now is meetings with these dual staffs.
    Mr. Wilson. And when you mentioned regulations, would these 
regulations include barring pharmaceutical companies from doing 
business in the United States so long as they have a 
relationship as currently exists in Iran?
    Mr. Talent. We don't have that specific recommendation. But 
one of the reasons why I pointed out before, I think, 
legislation as opposed to executive action--and this is so 
important--is because I think this will be a big piece of 
legislation. It will be a vehicle for a lot of considerations, 
you know, what might we do in a lot of areas to make different 
agencies sensitive to these concerns.
    And the very fact that Congress takes this in hand and 
legislates on it is going to make all the different agencies, 
foreign and domestic, aware that this needs to be a priority.
    But, no, we don't specifically recommend that.
    Mr. Wilson. And the Biological Weapons Convention (BWC) of 
1972, does it have sufficient safeguards against providing 
toxins to hostile nations?
    Mr. Graham. The answer to that question is no. We describe 
that treaty as being anemic. It is now almost 40 years old. It 
is badly in need of major revision and strengthening. We make 
some recommendations as to the direction that we think that 
strengthening should take. But it is not serving our interests 
in a world in which biological advancement is moving at flank 
speed with a 40-year-old instrument to try to control it.
    Mr. Talent. It is too weak, and countries don't pay 
attention to it anyway. We endorsed the decision to withdraw 
from the protocol because of the verification issues. But we 
encourage voluntary and strong compliance with the convention 
and new agreements, as well.
    Mr. Wilson. Thank you very much.
    Mr. Taylor. The Chair thanks the gentleman. Now recognize 
the gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you gentlemen for your service to our country, both 
in this endeavor and prior to it. We very grateful to you.
    I would like to focus on the area of fissile material in 
secured or unsecured storage areas and also the issue of 
blending down and converting highly enriched uranium (HEU) to 
low-enriched uranium (LEU), which is discussed, I think, on 
page 58 of the report.
    And on page 58 of the supporting appendix, you make 
reference to the Baker-Cutler review process in 2001. And there 
is a discussion of a need to upgrade that review now, given the 
new dynamics that we face.
    Of this committee were to lay out a set of criteria or 
benchmarks for a new Baker-Cutler review, what questions should 
we ask? What should the criteria be that we measure our 
progress against in that area?
    Mr. Graham. Well, I am going to defer to Dr. Allison for 
most of the answer because of his extensive expertise.
    But I would say that, in my opinion, number one is to 
dramatically increase the focus on biological. I said yesterday 
that, on a scale of zero to ten, I think we are doing about an 
8.5 job in terms of securing nuclear material inside Russia. We 
are doing a dramatically poorer job, maybe in the nature of a 
one, as it relates to biological.
    Mr. Andrews. Senator, how might we compel that increase and 
focus on biological? What would we do to make that happen?
    Mr. Graham. Well, I think, first, maybe, as the Baker-
Cutler Commission did, it brought focus to the issue of nuclear 
security; something analogous to that that would give specific 
focus to the issue of biological security.
    Mr. Andrews. Thank you.
    Dr. Allison. I had the great honor to serve on the Baker-
Cutler Commission, and I think it did, with Howard Baker and 
Lloyd Cutler, a terrific job.
    One of the things that it emphasized is that if highly 
enriched uranium is blended down to low-enriched uranium, it 
can be made into a fuel rod, used in a civilian nuclear 
reactor, and then effectively burned up.
    And most people don't realize, but if we take the lights 
here, of the electricity that is powering our lights today here 
in the U.S., nuclear produces about 20 percent of the 
electricity. Half of all that electricity is low-enriched 
uranium rods from Russia that used to be high-enriched uranium, 
some of which were part of bombs or others of which could be 
made into bombs. So there has been this deal for 500 tons of 
HEU to get blended down.
    We say in the report that you reference that we should 
incentivize another--there is another 300 tons of excess HEU 
sitting there. Getting it blended down in Russia or blended 
down and back into the markets seems to me to be a very good 
place to go, with respect to the nuclear piece.
    And I think wherever there is highly enriched uranium or 
plutonium, that is stuff from which people can make a bomb. 
Wherever that highly enriched uranium becomes low-enriched 
uranium, it can't be made into a bomb. So I would say the logic 
of the case we have both seen working in the HEU deal that 
currently operates. It concludes in 2013, as the report says, 
and could be extended and should be.
    Mr. Andrews. Thank you. And we would be very interested in 
your suggestions for the biological Baker-Cutler review the 
Senator mentioned, as to what questions we might ask and what 
criteria we might put into the statute to require that review 
to be properly focused.
    Senator Talent.
    Mr. Talent. I think we recommend, probably in this order, 
the kind of domestic regulatory reform we are talking about, so 
we establish a model internationally and show we are taking the 
lead. And then we recommend calling an international conference 
of the major bioscience powers to begin putting in place the 
kind of comprehensive regime that we already have in the 
nuclear area.
    The big strategic change we want with Baker-Cutler is 
moving Russia, our relationship, from a donor-recipient 
relationship to a partnership relationship. That strategically 
is what we think needs to happen so we can extend----
    Mr. Andrews. How probable do you think that change will be 
five years from today? Will it happen or not?
    Mr. Talent. Well, Senator Graham really is one of our 
Russia experts. It was our opinion, in talking with them, that 
whatever the issues we have in other areas--and we have other 
issues--that they do want to cooperate with us in this, that 
they see this as consistent with their national interest.
    Mr. Andrews. That is welcome news, indeed.
    Mr. Graham. And I believe that, as Russia has become 
economically stronger, they are unsettled by this donor-
recipient relationship. And for their own national pride and 
now with the capability to match that pride, they are ready to 
be approached about a partnership rather than a philanthropy.
    Mr. Andrews. Thank you very much
    Mr. Taylor. The chair thanks the gentleman. The chair now 
recognizes the gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I have a very short and then a longer question.
    The short question is, on page 63 of your report, you say 
that Iran could acquire sufficient HEU to build a nuclear bomb 
within 6 months to 2 years, or 24 months. This report is dated 
December 2nd, which is a month and a half ago. Can I conclude 
from that that your range now would be 4\1/2\ months to 22\1/2\ 
months?
    Mr. Graham. Yes.
    Mr. Lamborn. Okay. Thank you.
    My longer question is, you also state on the next page, 
under recommendation number five, that such engagement with 
both Iran and North Korea--but I want to concentrate on Iran 
because they are in a different posture than North Korea, 
obviously, not having already gone nuclear, where direct 
intervention becomes much more problematic. But, in the case of 
Iran and North Korea, you say, ``Such engagement must be backed 
by the credible threat of direct action in the event that 
diplomacy fails.''
    Can you elaborate on what you mean by ``credible threat of 
direct action''? And how important is this to happen before 
Iran goes nuclear?
    Mr. Graham. As I commented on earlier, the consequences of 
Iran going nuclear and of North Korea continuing to add to its 
warehouse of nuclear materials is unacceptable--unacceptable in 
the risk that they singularly would each represent and 
unacceptable in the consequences within the regions in which 
they live, the rapid escalation of the number of weaponized 
nuclear states.
    And so we suggest a strategy which is a layered strategy, 
starting with engagement incentives and disincentives, but 
always reserving that, if those all fail, that direct action is 
a very difficult but necessary step to avoid the other 
alternative, which is a nuclear Iran and a North Korea with 
enough material to not only launch an attack but survive an 
attack and start another attack, which is potentially its 
capability in the foreseeable future if they continue along 
their current course.
    Mr. Talent. Direct action is a threat of force of some 
kind, as Senator Graham said.
    Mr. Lamborn. Thank you very much.
    Mr. Taylor. Does the gentleman yield back?
    Mr. Lamborn. Yes, thank you, Mr. Chairman
    Mr. Taylor. Thank you very much, sir.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I would like to thank the members for their testimony 
and the hard work that you have put in in putting this report 
together.
    This is an issue that I have devoted a great deal of time 
and attention to, and I share many of the concerns that you 
raised in the report. I also, in particular, reached the same 
conclusion that you do, that a biological attack is probably 
the most likely event that we need to worry about in the near 
term.
    Let me put it in these terms. I look at these issues in 
terms of prevention, detection, and response as the best way to 
deal with them. And as much as I would like to get into all of 
them, let me look at the prevention, the detection issue first.
    And I know we have touched on some of these already, but, 
in terms of a biological attack, can you identify perhaps the 
single greatest thing that we could do in preventing a 
biological attack, outside of interagency cooperation, which is 
something I am going to ask about as well?
    There is a glaring vulnerability on the biological front 
that we are not doing that we need to do. In particular, now, 
on the interagency issue, in your report you rightly conclude 
that interagency coordination is a necessary step in combating 
terrorism, both at home and abroad. Could you elaborate on the 
ways interagency coordination can be improved upon?
    And you recommend that President Obama should designate a 
White House principal adviser for WMD proliferation and 
terrorism and restructuring the National Security Council (NSC) 
and Homeland Security Council, which I agree with. But what do 
you believe should be the qualifications of this adviser, and 
how will this adviser work to actively improve interagency 
coordination?
    My next area in terms of response, in terms of detection, 
obviously we want to try to push those rings out as far as 
possible. The first would be the deployment of biological 
sensors. I think most people would be surprised and 
disappointed to learn that we only have sensors deployed right 
now in about 30 major U.S. cities, and they are very human-
dependent, and that it would take days to collect the samples 
and then analyze those samples to know even if a biological 
event had occurred. And we need to put more resources into 
deploying the next generation of sensors that would be real-
time and require little to no human interaction.
    So can you comment on the state of our ability to detect 
and then also the current state of, say, our public health 
system and our ability to monitor, for example, pharmacies and 
emergency rooms to know that an event is actually occurring? 
And at what level are we, in terms of the resources we are 
putting into that type of thing of a system, and how much more 
do we need to put into developing such a detection system?
    Mr. Talent. Okay. We have just been talking, Congressman. I 
will do the biological piece first and then defer to the 
chairman and Dr. Allison.
    The most important thing on the biological side of it, we 
believe, is to get a handle and create incentives within the 
life science community to keep a handle on the potential misuse 
of dual-use technology.
    Now, you have studied this. You know that the high-
contaminant laboratories, some of them are not regulated at 
all. If they don't receive federal funds and they don't deal 
with agents on the select agent list, they are not regulated at 
all. Those that are are regulated by three different agencies, 
HHS, DHS, and Agriculture, if it is an animal-science-type lab. 
A lot of those animal pathogens can be turned into pathogens 
that can be used against people.
    So they are regulated by three different agencies, 
different kinds of regulatory requirements. We say get them 
under one agency, probably DHS or HHS. The labs have safety 
protocols and security protocols. Let's combine those so we 
have one laboratory security protocol which is uniformly 
followed.
    Let's get into the curriculum, when scientists are going 
through school, that, look, security is important. And do some 
common-sense things. Get a Nobel Prize laureate to chair a 
commission and speak out about the importance of being 
security-conscious in the life science community. And then 
organize international bioscience powers and try to get them to 
do the same thing. I mean, we really just have not done what we 
needed to do in this area.
    You mentioned sensors. We made an executive decision, the 
chairman did and I agreed with him, that we would not go 
heavily into consequence management. Because the problem in 
this kind of report is saying something without trying to say 
everything, right?
    So we didn't get--we had testimony in New York about the 
sensors, and I agree, personally, that we need more of that. 
Because the quicker we can establish there is an attack, the 
better we can manage the consequence of it and maybe get 
attribution. So I completely agree. We didn't get heavily into 
that.
    The one area we did say was that we have to get on the ball 
in dealing with anthrax. We don't have an adequate procedure 
for getting the Cipro out to people, and you can imagine the 
panic that is going to happen if people realize they are living 
in a city where there was an anthrax dispersal and they have 48 
hours to get the Cipro, and right now we are mailing it to 
them.
    I mean, so we have issues. But we did not get 
comprehensively into consequence management.
    Mr. Taylor. The chair thanks the gentleman. The chair now 
recognizes the gentleman from Colorado, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Let me ask a question on the nuclear side, then on the 
biological side.
    What role, do you think, on the nuclear side, does having 
an effective missile defense system aid us?
    And then, on the biological side, it seems so difficult to 
contain a biological agent. I mean, and it would seem that it 
would be more likely used by a non-state actor.
    Where is it in terms of the science marrying up with those 
groups, number one? And number two, I mean, how likely a 
scenario is that, to be used as a weapon for a terrorist group 
or non-state actors?
    Mr. Talent. Yeah, we agree with your evaluation, that the 
use of a biological weapon is more likely than the use of a 
nuclear weapon. Although, I am always careful, because the 
nuclear weapon they are trying to get too. And either are very 
feasible for them.
    We didn't get into missile defense because, really, it 
wasn't at the center of what our mandate was. I always was a 
supporter of missile defense. I always thought it was a more 
useful tool in dealing with rogue nation-states, though, than 
dealing with terrorists. Not that it wouldn't have some use for 
that, but simply because they are more likely to use the 
existence of a nuclear missile and a missile delivery system, 
either actually use it or use it as leverage in some kind of 
international confrontation, and that the missile defense would 
defuse it.
    But I think for the reasons that Dr. Allison indicated 
earlier, the terrorists have a wider range of options that they 
can use, some of which will not cause them to have a signature 
in using the weapon.
    Mr. Graham. I am now going to express a personal view that 
is not the Commission's view. It seems to me that we are in the 
area of missile defense approaching the world as it was during 
the Cold War. The Soviet Union had no compunction of having its 
name and signature on a missile that it might launch against 
the United States. A terrorist who is other than so lunatic 
that they would be institutionalized, would like to be somewhat 
clandestine in their form of attack. And therefore I think it 
is much more likely that they attack in subtle ways that do not 
immediately identify who is responsible. And thus as we look at 
the likelihood of a range of occurrences and begin to allocate 
our resources, I personally would like to see us put more 
resources on those things that would hopefully detect the non-
missile delivery system because that is the one that we are 
most likely to in reality have to confront.
    That is my position, not the Commission's position.
    Dr. Allison. I agree with Senator Graham's personal 
position. Again, the Commission didn't take a view on it 
because since--as we were discussing earlier--there is one big 
hurdle for terrorists to get or make a nuclear bomb. Then 
secondly, to get a missile is a whole nother exercise. Third, 
to get a bomb that can be weaponized so that it fits as the 
warhead of a missile, that is rocket science. There is a third 
hurdle. And then fourth, if the terrorists--I am attacking you 
with a missile, the crosshairs of a launch site appear in an 
American target within a minute after the launch of a missile. 
So if I had the choice between something that has an 
unambiguous return address and a surreptitious or covert 
delivery system, I think the latter is a lot more attractive.
    Mr. Taylor. Does the gentleman yield back his time?
    Mr. Talent. If you are Iran and you are considering 
aggression in the Mideast and you have the missile and a 
missile delivery system, that is a hedge against defeat in 
whatever conventional action you may be occurring. An effective 
missile defense then can diffuse that hedge, if you will. But 
we are discussing the nation state in the terrorist context.
    Mr. Taylor. Thanks to the gentleman. The Chair now 
recognizes the gentleman from Pennsylvania, Admiral Sestak.
    Mr. Sestak. Thanks, Mr. Chairman. This was a great report 
on what needs to be done. And I am sure the door to the new 
Administration is already open for it. It won't take much 
pushing since some of the recommendations are similar. But the 
conundrum, as you kind of put out, is how to make it happen. So 
I only had two questions, one international. One is on the 
domestic aspects of your report.
    And, Senator, the reason for that is for you, please, I was 
struck by what you said during the testimony today that you 
cannot solve the problems of Pakistan within Pakistan's 
borders. You must look regionally to solve Pakistan's problems 
in this proliferation issue. How then do you sit back--and I 
know you only had six months, but we have some very good 
functional recommendations here. However, even when we dealt 
with, let us say, Pakistan in the report, it was still a 
functional counter-proliferation regime approach when you 
looked at anything within the region or even worldwide. Could 
you comment about how well can you really address counter-
proliferation absent taking in regional goals of the other 
players and of ourselves? And is that a piece that probably by 
itself makes this maybe less than what you would have desired?
    Mr. Graham. My answer is I don't think you can do it 
effectively just focusing on a single nation state. As an 
example, the issue of Kashmir, that has been a thorn in the 
Indian-Pakistani relationship since those two nations were 
created out of the old English-Indian empire. It is one of the 
classic cases of kicking the can down the road with the 
expectation that somehow the problem is going to become less 
severe. The reality is that in almost all instances it becomes 
more severe, more ominous, and more universal. So if I were 
going to advise the new envoy, Mr. Holbrooke, one of the first 
places I would focus my attention would be on how then to begin 
to mitigate that controversy because as long as it is in its 
current state, it going to be a bleeding scab between those two 
countries. I would also put focus on what I suggest that the 
U.S. and Russia ought to do together to try to encourage those 
two countries to develop some protocols that will take them a 
little bit on less of a hair-trigger use of nuclear in the 
event of a conflict.
    Mr. Sestak. My second question has to do with domestically 
and it touches upon your answer. And, Senator, keep in mind 
that throughout today we heard the words ``safeguards,'' 
``verification,'' ``accounting,'' ``counting,'' ``missing labs, 
lab personnel,'' et cetera. And to some degree, you can only do 
so much if you don't have the right information. And yet the 
study--step back--and although my first question had to do with 
how can you really look at proliferation in the absence of 
regional goals--is your recommendation by and large to the 
Intelligence Community--and I know I am doing it short shrift 
here--is you know what, we have uprooted--you even quote 
General Hayden in it--every 18 months to look and see how they 
are doing and sticking them back in. Let us kind of leave them 
alone for a while. My question really comes if that is the 
right issue. You talk about Pakistan, if I could go back. There 
is 70,000 people involved in the nuclear industry in Pakistan; 
8,000 of them are scientists, 2,000 of them are core, but that 
talent is coming from the universities which is the most 
radical time they have ever had in their universities. How do 
we know who is in those labs and what they are doing? Even 
though we have safeguards over what they have already produced. 
And my question comes really to you because you were all 
denied, from my understanding, access to the Intelligence 
Community in some regards.
    For example, according to Mr. Henry Sokolski, a member of 
your commission, you were not permitted to have access--well, 
actually you got a single classified briefing on North Korea 
and the same on Iran and you were denied the access of how 
Russia is assisting Iran. How can you be certain that your 
recommendation to leave the Intelligence Community by and large 
alone, when information and knowledge is what it is all about 
in the future, is the right one when you yourself didn't quite 
gain potentially the access to the intelligence to make that 
recommendation to us?
    Mr. Graham. Well, as someone who has spent a lot of my 18 
years in the U.S. Senate in the area of intelligence, I 
recognize that the President of the United States is the 
principal customer and consumer of U.S. intelligence 
information and that he or she is going to be the recipient of 
the largest volume and the most subtle qualitative 
intelligence. But I felt that we had adequate access for our 
purposes. I did not feel that our ability to make the 
recommendations that we did was constrained by an absence of 
access to intelligence.
    Second, there are a variety of ways in which the 
Intelligence Community can reform, one of which is what 
happened in 2004, which was a massive congressional 
restructuring of the basic architecture of the Intelligence 
Community. I think now we have got some very good people who 
have been in place, like Admiral McConnell and General Hayden, 
and we have another group soon to arrive, Admiral Blair and 
former Congressman Leon Panetta. I would entrust to them to 
carry these reforms to the next level.
    Mr. Taylor. The Chair thanks the gentleman. The Chair now 
recognizes the gentleman from Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. I thank all the 
members of the panel here. I think that the subject that you 
speak about today is something that perhaps the country 
underestimates and that your involvement is critically 
important. I was struck by, Dr. Allison, your comment related 
to certain timelines passing and reducing our ability to 
respond and our options. I think that is an extremely important 
point. Senator Talent, I consider your voice one of the great 
voices on missile defense in the country. And I actually 
believe that it is a pertinent issue here today because I 
believe missile defense has the ability to devalue nuclear 
programs to the extent that maybe they don't occur, which is 
how a lot of these other potential nuclear proliferation 
items--how--the genesis of where they would come from. And I 
think that we are making some pretty serious mistakes related 
to Iran in not making sure our missile defense capability in 
Eastern--in Europe and other places is not there at least as 
part of the dissuasion to prevent them from having that 
capability.
    Mr. Talent. It is the calculus that you are trying to 
affect. I agree.
    Mr. Franks. And, of course, missile defense is also a good 
idea if one really is coming. It can be a real encouragement. 
But with that said, I am struck by Mr. Bartlett's scenario 
where someone off of our shore would watch either a Scud 
missile or something like that, whether it was an 
electromagnetic pulse (EMP) attack or directly on our country. 
And, Dr. Allison, I am not convinced that terrorists would be 
that concerned about their identity being known at that point 
because they can think--there is just a lot of things. And most 
of the terrorists on the airplane weren't too concerned that we 
might know their name after the deed was done.
    So my question really is this: I understand that the 
biological threat was emphasized, and I completely agree with 
that. But I am focusing for a moment on the nuclear issue 
because I somehow have this crazy notion in my mind that 
terrorists would like to see one of our cities in nuclear 
flames or some type of EMP attack just for the spectacular 
nature of it. And with that said, I am not sure that I will 
focus on Iran. Your own report says just how much time does the 
world have to seek this full clarity about Iran's past and 
present nuclear program and decide what to do. Experts such as 
David Albright of the Institute for Science and International 
Security (ISIS) have underscored that the timeline for Iran's 
acquisition of sufficient highly enriched uranium to build a 
nuclear bomb is ominously short. It ranges from only six months 
to two years.
    I guess the bottom line is this: How much time do we have 
related to Iran gaining a nuclear capability which they could 
give to terrorists? How much time do we have to ascertain their 
capability? And will anything short of either a direct military 
intervention or the conviction in their minds that that will 
occur be enough to dissuade them?
    And I will start with you, Senator Talent. And if there is 
time, I hope you all take a shot at it.
    Mr. Talent. We don't have a lot of time. I think the report 
reflects that the threat of direct action has to be on the 
table and the inference from that is that without the belief 
that the--the credible belief that will be the use, the various 
diplomatic issues won't work and I think that is based on 
inference, Iranian intentions. I said at the beginning of the 
hearing, these groups are trying to acquire these weapons for a 
reason because in the context of their goals and the globalized 
world, this is an asymmetric weapon of enormous power for them 
and to the extent that you can diffuse the effectiveness of a 
weapon, however you do it--and I would agree with you that 
missile defense is a key thing. We don't address that in the 
report. To the extent you diffuse the effectiveness of the 
weapon, you undermine their reasons for trying to get the 
weapon and make it less likely that they will do it. So I 
certainly agree with your analysis in that regard. And this is 
our feeling regarding Iran, without going into the tactics of 
how it could be done or the likelihood of being able to 
accomplish it.
    Mr. Franks. Anyone else? How much time do we have and what 
short of direct military intervention will dissuade Iran or at 
least the conviction in their minds that that will occur?
    Dr. Allison. Iran today probably has enough low-end 
enriched uranium (LEU)--if not today, in a month or two 
months-- which, if it were run back through the Natanz 
centrifuges, could produce enough highly enriched uranium (HEU) 
for its first bomb. So they have already got into that zone. 
What we should rightly worry about is a covert Natanz that we 
don't know about and can't identify, which is doing the same 
thing. Because how likely if you were the manager of the 
Iranian nuclear program is it that you would put all your eggs 
in one basket under the lights of international inspection. I 
think not very good.
    Mr. Franks. So what is your recommendation that we do about 
it? What is your recommendation that we do?
    Dr. Allison. So if you try to work through the military 
options, one of the things for sure, you can't destroy targets 
that you can't identify. So trying to get to Iran in a 
negotiation in which you have got lots of carrots and lots of 
sticks making as credible as possible that those include a 
military option, even though it is not a very good option, is 
where I would go.
    Mr. Taylor. The chair thanks the gentleman. The chair now 
recognizes the gentleman from Virginia, Mr. Nye.
    Mr. Nye. First of all, Senator Graham, I just want to thank 
you and your fellow panelists for the work and the judgement 
that you have obviously applied to this report. Senator Talent, 
I particularly appreciate your comments today on the use of 
soft power and the need for a greater focus on that in our time 
going forward, not least because I spent a considerable amount 
of time working with the U.S. Agency for International 
Development (USAID) in both Iraq and Afghanistan on democratic 
and economic development. And I agree with the findings in the 
report that Pakistan is indeed a nexus of threat and that to a 
large degree that threat will be centered in these Federally 
Administered Tribal Areas (FATA) of Pakistan.
    What I would like to ask you, Senator, and the other 
panelists if you wish to comment, can you please give us your 
assessment after going through this process of both the 
capability and the inclination of the new government in 
Pakistan to work with us and be helpful in perhaps taking a 
more proactive look at those FATA areas in terms of applying 
soft power, trying to neutralize these threats?
    Mr. Talent. Officially, of course, they have the--in terms 
of using soft power in place of threats, that is a different 
issue. I think one of the things we have got to do with soft 
power and the tools of smart power or soft power is to create a 
greater sense within the Pakistani government first and other 
governments in similar circumstances that these kinds of tools 
are very helpful, and one of the goals of the use of soft power 
would be to communicate the intention that this is a good thing 
that is going to help reinforce them and their government and 
lead to better relationships. So that is one of the mindsets we 
have to create. I don't think it is there yet. I don't think--
because I just don't think we have been effective in doing 
this. And you have had personal experience with this. We have 
had to use these tools or tried to use them in Bosnia. We have 
had to use them in Afghanistan. Now we need them in Pakistan. 
At what point are we going to decide this is a capability we 
have to have organically someplace that Presidents can deploy 
effectively and quickly like they deploy the capabilities that 
this committee oversees routinely through all three of the 
services.
    Mr. Graham. My sense is that the new government in Pakistan 
very much wants to create a new beginning for the country with 
one of its goals is to keep the country unified. I think one of 
the real, at least a possibility, is a splintering apart of 
Pakistan and with those northwest territories being likely the 
first to secede from the nation. A part of the reason is the 
fact that they feel in that area that they have not received 
the kind of attention and schools and hospitals, economic 
development that other parts of the country have. So I believe 
that the new government is going to make a special effort to 
demonstrate that it has value to those parts of the country in 
order to tamp down any secessionist aspirations.
    Now, what is going to be the capability of the government 
to do that? That is yet to be tested.
    Dr. Allison. Let me just say I am pessimistic.
    Mr. Nye. Thank you for your candor. I will yield back the 
remainder of my time.
    Mr. Taylor. The chair thanks the gentleman. The chair now 
recognizes the gentleman from Virginia, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Senator Graham, 
Senator Talent, Dr. Allison, thank you so much for all of your 
effort that went into this report. I think it is very, very 
telling. I did want to focus again on Pakistan. You do speak 
about some positive things going on there. You speak to 
President Zardari's remarks after the Marriott bombing in 
Islamabad, that the war on terrorism is their war. You also 
speak to the tribal leaders uniting, organizing against Al 
Qaeda both in the FATA and the North-West Frontier Province 
(NWFP). One thing that you have left out that I am curious 
about, and that is the feelings of the Pakistani Army, General 
Kiyani, and what General Kiyani's feelings are about this 
effort, about our efforts there to counter terrorism in the 
area to try to secure those tribal regions. I see that as a 
critical link with this. Obviously there is always this dynamic 
there between the government and the army. I want to know where 
do you believe General Kiyani is with this and, as you know, 
General Hamad there too sometimes has a little bit different 
feelings than General Kiyani.
    Can you give us some of your overview about how you see 
that dynamic coming along and where that leads Pakistan in this 
effort?
    Mr. Graham. Again, I think that is a relationship that is 
yet to be fully tested. The general has made the right 
statements as to his desire to be subservient to the civilian 
government and function within the democratic framework. But we 
have had one small test when the civilian government said they 
would send the head of the intelligence agency to India to help 
with the Mumbai investigation and then the military rescinded 
the right of the head of the Inter-Services Intelligence (ISI) 
to go. That was not an encouraging sign. As Dr. Allison said, 
the military has in Pakistan been the only load bearing part of 
the society and whether they are going to be willing to see 
themselves as a load bearing unit carrying affirmatively the 
weight of democracy and protecting it is going to be one of the 
several key questions as to the future of Pakistan.
    Dr. Allison. I agree with him entirely, the two comments 
made. I think that Kiyani in terms of his history has had a 
reasonable relationship with the U.S. And I think what is hard 
to appreciate is the turbulence from the cross currents of the 
environment in which they are operating. If you were to wake up 
some general in Pakistan in the middle of the night and say 
what is going on in Afghanistan, they would think what is going 
on in Afghanistan is negative for Pakistan and that it has 
something to do with Americans and Indians being in cahoots 
surrounding them. So if you listened to the noises after the 
Mumbai bombing for two weeks of universally denying Pakistani 
engagement of even LTs when there was one of the terrorists 
whom they had captured. So I would say that the--I feel very 
uncomfortable about the extent of which they and we inherit the 
same--have the same picture of what is going on.
    Mr. Talent. And I would just add--and these two gentlemen 
are more expert on the Pakistanis than I am. But that situation 
is extremely fluid. Dr. Allison referred to cross currents. You 
get a leadership that is in an unstable situation like that, 
where they are worried about staying in power personally or 
their personal fortunes, they are not spending a lot of time on 
the long-term efforts to secure nuclear material. They are just 
thinking about surviving day to day. And I think that is a huge 
part of the problem.
    Mr. Wittman. One quick follow-up question. Are there things 
that the U.S. can do to try to encourage general Kiyani in a 
productive way to sort of mirror the efforts there? At least 
President Zardari has indicated the direction he would like to 
see things go.
    Mr. Graham. I think a part of that is for the United States 
not to be as fixated on relations with the military as it has 
been in the past. And that is not just a comment for the last 
eight years. It goes back much further than that. We have got 
to give more recognition to the civilian government in order to 
domestically enhance its credibility as the responsible party.
    Mr. Taylor. The chair thanks the gentleman. The chair now 
recognizes the gentleman from North Carolina, Mr. Kissell.
    Mr. Kissell. As everyone has said, thank you for your time 
and efforts. And I have got--we have covered some pretty broad 
ranges--a couple of just specific questions. And in 
anticipating a biological attack, what agent or range of agents 
would you think might be used and what would be the degree of 
danger amongst those particular choices?
    Mr. Graham. I think most of the experts would say that 
today the answer would be anthrax. It is the most available. It 
is the one that has been weaponized to the greatest degree. Now 
anthrax has a number of problems, one of which is effective 
dissemination. It has been tried in two or three instances, 
particularly in Japan. And the technical problems of getting it 
out there in a way that it can kill a lot of people were not 
resolved, thankfully.
    The second problem is that anthrax is not communicable 
person to person. So its ability to multiply is much less. Our 
concern, as we talk about in the report, is that there are a 
lot of in some cases new and some others old pathogens that are 
being regenerated. For instance, in 1918 there was an influenza 
attack that killed up to 40 million people worldwide. That 
influenza has been extinct for most of the last 70 years. It 
has just been recreated in a laboratory. If that were to get 
out with the reality that we have almost no anecdotes today to 
that strain of influenza, it could kill a lot more than 40 
million people.
    So today it is anthrax. Tomorrow it is likely to be one of 
these more communicable and more newer or recently resuscitated 
pathogens.
    Mr. Kissell. We talked about Russia and hopefully since the 
cooperation, does Russia feel threatened that it might be 
attacked in this way?
    Mr. Graham. The answer is it is very concerned about being 
attacked nuclear and that is part of the reason we have had 
such good cooperation. It is not just all a matter of their 
good feeling towards us. They recognize their self-interest, 
particularly some of the incidents that have occurred in 
Chechnya and the fact that they have a massive non-ethnic 
Russian population immediately to their south that is 
concerning them. But given the way they have dealt with 
biological, very weak security and a much less willingness to 
involve not just the United States, but the international 
community in efforts to enhance that security, we tend to--
would tend to lead me to believe that they don't put as high a 
priority on the possibility of a biological attack as our 
report does.
    Mr. Kissell. And my last question. I grew up in the 1950s 
and the 1960s in the Cold War and the concept of mutually 
assured destruction, MAD. Dr. Allison, you kind of alluded to 
this a couple of times, that trail back to where the missile 
came from. The states that we are most concerned about, does 
the concept of mutually assured destruction affect them 
whatsoever and especially in terms of how they might actually 
be trying to control these weapons?
    Dr. Allison. A very good question and if we take North 
Korea, which I would say is the most troublesome for me because 
Kim Jong-il has demonstrated he would sell and build a nuclear 
reactor in Syria when we told him he can't do that, every red 
line that President Bush laid down for him he stepped over. So 
what is deterring him from selling a nuclear bomb to Osama bin 
Laden? The answer is I worry about that every day. So if we had 
developed an adequate nuclear forensics capability so that we 
could credibly identify his fingerprints on that bomb and if we 
were prepared then to explain to him that a bomb that was made 
in North Korea, even if it was delivered in a boat by Osama bin 
Laden, would be treated by us precisely as if it had been put 
on a missile and shot against Los Angeles. I think he has got 
the idea in his head that if he were to launch a missile with a 
nuclear weapon against Los Angeles, North Korea would be erased 
from the map.
    So that is MAD with respect to identifiable sources. The 
question is could we extend that idea in the nuclear terror 
space. I have been a strong advocate of trying to do so. One of 
the areas in which our investment pattern has been woefully 
inadequate is in developing that nuclear forensics capability.
    Mr. Taylor. The chair thanks the gentleman. And I now 
recognize the gentleman from Florida, Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman. Gentlemen, thank you 
for your testimony. And, Senator Graham, I think it is a great 
honor for me that the first question I ever ask as a 
Congressman on a committee is to you, having worked in Senator 
Connie Mack's mailroom in the early 1990s and getting to ride 
the elevator with you and you knowing the mascot of my high 
school, Benjamin Buccaneer. I have always been a big fan of 
yours. So my question is basically just a follow-up with some 
of the things that have been touched on early with regard to an 
issue unfortunately that wasn't discussed directly in your 
report, and that is with missile defense.
    You testified earlier that Pakistan and India didn't per se 
have safeguards in place, no red phone-type system. Does a 
missile defense system with either the United States 
spearheading it or another country or a series of alliances, 
does that have any role in that India-Pakistan--I guess it 
would be your opinion because it is not in the report. Do you 
think that a missile defense system has any role in that area 
of the world, and if we have any obligations there with regard 
to keeping, you know, the global community safe?
    Mr. Graham. First, Mr. Congressman, I want to congratulate 
you for your election and you are going to be representing a 
wonderful part of our State in America and I know that your 
constituents are in good hands. Congratulations. And it is an 
honor to try to respond to your first very good question.
    I would personally doubt that an investment in missile 
defense in the India-Pakistan region would be very productive. 
The reality is that the imbalance of population, with India 
having over a billion people and Pakistan about 150 million, 
plus or minus, has created on the Pakistani side the military 
doctrine that they have to go nuclear quickly because they 
cannot defend themselves against a land attack.
    So I don't think that the existence of missile defense as 
we know today would be much of a restraint. I think what we 
have got to do is to work on the relationships between those 
two countries and try to get them to back down on the hair-
trigger nature of their current military posture because 
Pakistan will have some justifiable basis for greater conflicts 
if they are not going to be overwhelmed by an Indian infantry 
assault.
    Mr. Talent. For follow up, Congressman. I don't want to 
interfere with your agenda. To me this points to a larger 
strategic reality that implicates the overall work of this 
committee. The stabilizing nature of American power and 
influence, to the extent that the world believes with some 
confidence that the United States is capable of taking the lead 
with other nations, of dealing swiftly and effectively with 
major threats to the international order, it stabilizes--
whether that is through missile defense or some other tool. And 
to the extent that they begin to lose that confidence, we have 
destabilization, which is part of the danger, reason why we are 
afraid of a nuclear cascade.
    Now let us switch to a different venue. With North Korea in 
possession of nuclear weapons, what do the Japanese do? If you 
are the leader of Japan--and of course they have a history of 
non-nuclear tradition--you have to consider whether you need to 
develop a nuclear deterrent on your own. Well, what is the 
reason they have it? And part of it is their tradition and part 
of it is their confidence that the United States--the umbrella 
of American power, if you will, is capable of dealing with that 
in some productive fashion.
    So one good way to look at this and maybe try and achieve a 
constructive kind of agreement is to say on the question of 
missile defense I am a strong supporter. As an operational 
question, what capability do we need? But to help achieve 
something that strategically we all believe we have to sustain, 
which is the confidence in American leadership and power around 
the world, I agree with you, I think missile defense is a 
useful and flexible tool, particularly when dealing with nation 
states.
    Thank you, Mr. Chairman. I yield back.
    Mr. Taylor. Thank you very much.
    The chair now recognizes the gentleman from New Mexico, Mr. 
Heinrich.
    Mr. Heinrich. Thank you. Thank you, Mr. Chair. I want to 
kind of return for just a moment to something that Mr. Nye 
brought up earlier and that is the role of soft power or smart 
power, particularly in Pakistan and in the Federally 
Administered Tribal Areas. And I didn't see--I read your 
recommendations regarding additional support for education and 
commerce efforts and particularly in that portion of the 
country, but I didn't see a lot of confidence or faith in the 
current government in Pakistan to be able to impact that on the 
ground. I wondered if you--where do we get the ball rolling 
there? How do you start that process of--you know, we are at 
three percent literacy for women in that region of the country. 
You would think there is no place to go but up from here, but 
how do you get that process going?
    Mr. Graham. I think first in terms of the U.S. role is for 
the United States to decide that is important to do, which is 
not a posture that I believe we have been in historically in 
our relations with Pakistan. We have with the host nation and 
with other members of the international community attacked 
these kinds of problems elsewhere in the world with some 
considerable success. It is not going to be easy to do it in 
that area of Pakistan in large part because the security is so 
fractious. But the fact that it is hard doesn't mean that it is 
not important and in this instance we think urgent to make the 
very best effort that we can. In the ideal world it would be 
with the leadership of the Pakistani government and our 
support. In a less than perfect world, it may be more direct 
action by the United States.
    Mr. Talent. I look at smart power as maybe a very 
significant refinement, if not an entirely new platform, a very 
significant upgrade to the traditional tools of diplomacy and 
foreign assistance, which are effective in some context, but 
frankly just not in others and I also see it as a more targeted 
tool. So I think I would maybe restate your question, if I 
could, to say, okay, let us say we have determined that 
improving literacy in Pakistan is an important way of messaging 
America's benign intentions. Okay? What we need is a capability 
for a President to be able to say right now here is the poll 
numbers in the area of FATA about American intentions, which 
is, like, way down. Now, six months from now, I want it to be 
three times what it is now, just as we might say this to one of 
our political consultants. Right? Now, I want the capability 
for the President to be able to say that and do that and maybe 
that includes improving literacy or maybe it is health care. So 
maybe what we do is figure out what the people in that area 
want the most and try and be helpful in delivering that to 
them. But you see how this is more targeted and in the context 
of a more--of a direct American goal and integrated in the rest 
of foreign policy. The problem is whereas if you need littoral 
combat capability in DOD, you target--tell the Navy that, they 
figure what they need, they get the capability. We don't have 
that mechanism in civilian agencies to do this. So Presidents 
are left with we can recommend these things broadly. You can't. 
President Obama has got to figure out how to try and do it. And 
right now I just don't think we have the capability to 
implement his directive in that regard. So he holds the bag for 
something he really doesn't have any authority to do.
    Mr. Heinrich. I have a second question that is on a 
markedly different subject and I will direct this to Dr. 
Allison. And I was very intrigued by the discussion regarding 
the lack of protocols between India and Pakistan should those 
countries find themselves at odds. And it occurred to me our 
Nation has gone to great lengths over time to make sure that 
our nuclear assets are secure from the sense that--just 
basically from very basic things, like an accidental or an 
unplanned ignition, and we do that through our technology and 
to great success. And obviously the Russians have done the same 
thing, judging from at least the lack of an unplanned ignition. 
I am curious, do India and Pakistan have the same--do they have 
the technical capabilities in place today to make sure that 
there is not something as basic as an unplanned ignition?
    Mr. Taylor. Dr. Allison, if I may. We have two additional--
--
    Dr. Allison. I will answer no.
    Mr. Taylor. That is a great one. Okay. And if it requires 
further, if you could do it for the record, please, sir. The 
chair thanks the gentleman.
    The chair now recognizes the gentleman from Maryland, Mr. 
Kratovil.
    Mr. Kratovil. Thank you very much, Mr. Chairman. I want to 
go back to the first question that was asked by the chairman. I 
understand the Commission didn't want to bind the incoming, now 
the new President with particular recommendations as it related 
to Iran and North Korea. The counter to that obviously is we 
are in a sense looking to you for guidance on how best to deal 
with that issue. So without binding anyone, my question is--and 
perhaps, Dr. Allison, this is best towards you--what are the 
carrots--we know what the sticks are essentially--but what are 
the carrots that you think we should be using in dealing with 
North Korea and Iran, and I gather from all of your 
recommendations that we should be using various carrots and 
sticks seems to imply that you do believe in direct dealings 
with Iran. So the question is, what specific carrots do you 
suggest and do you--did the Commission unanimously agree that 
direct talks with Iran based on success with--some success with 
North Korea is appropriate?
    Dr. Allison. The Commission did not have a consensus on 
this. Actually we had some quite strongly different views. 
There were some people who strongly supported the view of the 
Bush Administration in the first term or I would say John 
Bolton's views, which are the solution to the problem in North 
Korea and Iran is regime change and the only problem is we 
don't know how to do that. But in any case, that is our 
objective and that is the problem we should work on. We should 
isolate them, we should not negotiate with them. And if they do 
things in the meantime that we don't like, like, for example, 
go from having two bombs worth of plutonium to ten bombs, we 
should blame them for that.
    So I am not giving, I think, the most charitable 
interpretation of that view, but you might gather I disagree 
with it. There is an alternative which says this is a lousy 
regime, it is a horrible group of people. They do starve their 
own people, the North Korean regime. But in any case, a North 
Korean regime that has two bombs worth of plutonium and no 
tests is hugely better than one that has ten bombs and has 
conducted a test. As one of my colleagues likes to say, 
challenge them to conduct their first tests with two bombs and 
then tell them that you can't do that again. So two bombs and 
ten bombs in a test are two totally different worlds.
    What Bush inherited is a totally different threat than what 
he is leaving to his successor. So in the North Korean case, if 
one were prepared to live with a miserable regime, but 
nonetheless not to threaten regime change to the regime and one 
were able to persuade the Chinese to exercise leverage, because 
the only people that have really powerful leverage with the 
North Koreans are the Chinese, I would say that is our best 
hope for trying to get that rolled back. And at this stage, I 
would say it is not a very great hope.
    In the Iranian case, again what is it that the Supreme 
Ayatollah is most concerned about in Iran? It is the 
preservation of the regime. That is his responsibility. What is 
it that we say we want to do? Change the regime. Now, actually 
in the second term, as the negotiations developed a bit, we 
backed off of that somewhat. But I would say the combination of 
carrots and sticks for Iran would stop Iran short of a nuclear 
bomb, stop Iran short of highly enriched uranium. How much 
further can I get them back? Well, again it depends on how much 
I can give and how much I can threaten. But I think that hand 
is going to be extremely difficult. When they had zero 
centrifuges, it was plausible that you might stop them with 
zero centrifuges. When they had one cascade or two, it is 
possible that you might stop them with that. At this stage, I 
worry that even if they were to erase Natanz they already have 
the know-how. And what I worry about is the covert Natanz, not 
the one that exists. So I would say the Iranian case is quite 
difficult, but it would include, I believe if we are going to 
be successful, acknowledging that a regime that we don't like, 
we are going to live with because a lousy Iranian regime with 
no bombs is terrible, but it is a lot better than that same 
regime with nuclear bombs.
    Mr. Kratovil. Mr. Chair, do I have any time remaining?
    Mr. Taylor. Forty seconds, sir.
    Mr. Kratovil. What country should we be most concerned 
about in terms of the bioterrorism threat? In other words, 
where are the safeguards that you suggest we need most lacking? 
What countries?
    Mr. Graham. Pakistan would again be at the top of the list. 
But with the biological, it is becoming a very rapidly 
expanding set of countries. For instance, India, Malaysia, 
Indonesia, Brazil are all--Cuba--developing substantial 
biological capabilities. That is why our recommendation is that 
one of the immediate steps that the new Administration should 
take would be to convene a conference of exactly those 
countries as well as the more traditional first world countries 
with biological capability to start from the premise that we 
all are at risk. The world is at risk by this and that we share 
a common responsibility to try to take those steps that will 
begin to turn that line that Dr. Allison talks about on another 
trajectory.
    Mr. Taylor. The chair thanks the gentleman. The chair now 
recognizes the gentleman from New York, Captain Massa.
    Mr. Massa. Thank you, Mr. Chairman. Senator Graham, it is a 
pleasure to be with you again after years of being apart. And I 
am too honored that my first question in the hearing would be 
directed to yourself. These are relatively straightforward. So 
if you will bear with me. I understand from your testimony and 
is it in fact the position of the Commission that the threat of 
biological and chemical warfare attacks against the United 
States from rogue nations or individual terrorist is a higher 
threat than those of concentrated nuclear attack, am I 
understanding that correct?
    Mr. Graham. A threat to the world, it is more likely that 
somewhere in the world a biological device will be used than it 
is--that it will be a nuclear device.
    Mr. Massa. And both you and Senator Talent with literally 
decades of combined Senate experience have witnessed the 
expenditure of tens of billions if not hundreds of billions of 
dollars on an anti-ballistic missile nuclear defense shield 
that has come under several names from Star Wars to its current 
environs, both in fixed missile defense as we have in the 
Aleutian Islands, and as the Navy and Air Force's versions for 
mobile. Would you agree that we have expended if not hundreds, 
at least tens of billions of dollars in that effort?
    Mr. Graham. That is a statement of fact, yes.
    Mr. Massa. So is there any situation that your Commission 
is aware of by which the current emphasis on strategic 
ballistic missile defense as it occurs today and we are 
spending money on today can address the potential imminent 
threat of chemical or biological terrorist attack as you have 
seen and studied in your six months of this Commission? Are the 
two matched up in any way at all that one could defend against 
the other? Specifically, for instance, anthrax.
    Mr. Graham. The answer is I guess it is technically 
feasible that a missile could have on its nose a biological 
weapon.
    Mr. Massa. Is it probable in your opinion?
    Mr. Graham. Is it--I would think that it would be unlikely 
that the biological weapon, which we think is the more likely 
to be delivered, would be delivered on a missile, beginning 
from the fact that the group that we are most concerned about 
are the terrorists and I think for them access to a reliable 
delivery system through a missile is highly unlikely.
    Mr. Massa. In that the power of this body is publicly seen 
as being a largely controlled national treasury, the power of 
the purse, we are in command of nothing except a small portion 
of the authority of the budget, do you believe it is 
appropriate that as a body we examine or reexamine the national 
allocation of funds to the strategic missile defensive 
initiatives to more accurately match the threats that you have 
described here today?
    Mr. Graham. As I said to an earlier question, I think that 
we need to have at some point in the Federal Government, 
Congress or the executive branch, a capability of looking at 
our threats, assessing what it is going to take to mitigate or 
eliminate those threats, and then allocating resources against 
some sense of prioritization, putting the most effort on those 
that are the most likely.
    Mr. Massa. Dr. Allison, you embody quite literally decades 
of experience on this subject. We are going to be spending tens 
of billions of dollars during my two-year term here on 
strategic missile defense. Do you believe that money could be 
better spent in protecting us from the biological threats that 
you have discussed here today?
    Dr. Allison. I believe that both nuclear terrorist threats 
and biological terrorist threats are greater threats to America 
than is the delivery of a warhead by a missile against 
Americans. So in the hierarchy of threats I have no question in 
my mind that terrorist attacks not using missiles are a greater 
threat than missile attacks.
    There is a second question, which is how much money should 
we spend on defense altogether, and I tend to be mostly 
conservative. So I pretty much want to cover all the bets. But 
in terms of priorities I would focus on the greater threats to 
us, and I think under the current situation in which we spend, 
I think the current missile defense budget is nine or ten 
billion dollars on missile defense annually and we spend a 
small percentage of that on higher ranking threats doesn't make 
sense.
    Mr. Massa. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Taylor. The chair thanks the gentleman. The Chair now 
recognizes the gentleman from South Carolina, Mr. Spratt. And 
again I want to thank you, gentlemen. We are going to wrap it 
up after Mr. Spratt's questions.
    Mr. Spratt. Thank you very much for your excellent 
testimony. I got here late, but I heard the gist of it all, and 
I have been doing my homework sitting here as you testify. And 
I think you have made an enormous contribution. You are asking 
for your charter to be renewed and extended. If you did that, 
would you use it to focus on biological threats or to more 
fully focus on the traditional concerns we have had over 
nuclear weapons and radiological dirty bombs and things of that 
nature? Is there any particular purpose you have in mind for 
the extended term, Mr. Chairman?
    Mr. Graham. I appreciate your asking that question, 
Congressman Spratt. We would--our goal, if we are asked to 
extend beyond submitting the report, is going to be 
educational. We believe the American public needs to understand 
the implications of what we think the risk assessments are and 
the need to urgently move to the steps that we have outlined to 
reduce that risk. So our principal activities would be things 
like we are doing today, responding to requests by individuals 
and committees of the Congress on this issue. We also have and 
will do briefings of the appropriate new executive officials 
who will have responsibility on this matter, and we will 
respond to requests from universities and other groups who 
would like to learn more. We think that last point is 
particularly important in light of what Senator Talent has 
emphasized, and that is the importance of developing within the 
scientific and academic community this culture of security for 
biological materials that is inadequate today.
    Mr. Talent. Could I add one word, Congressman, to that? I 
agree with everything that Senator Graham said. And we would do 
all of this with respect to the broad range of recommendations 
in the report. We tend to emphasize biological because one of 
our goals is to raise the visibility in that area because we 
think it hasn't been visible enough.
    Mr. Spratt. When you say to raise it, the level of 
education, are we talking about awareness, too, on the part of 
those who are able to synthesize DNA and constitute a real 
threat of unknown genomics? Is that part of your purpose, too, 
to go to try to begin some process for self-restraint on their 
part?
    Mr. Graham. The answer is yes. And we wouldn't be doing 
this alone. As an example there are now some 20 research 
universities which have come together to encourage this greater 
sense of common purpose in the use of particularly biological 
materials. It is being chaired by the President of Pennsylvania 
State University, Graham Spangler. And we would work with 
groups like that in supporting their efforts, as well as groups 
similarly who are involved in other aspects of our effort.
    The book that we have published that I believe you have, 
whatever royalties come from that book are going to go to an 
American foundation which is working with the education and 
health care systems in Pakistan. We think that is the kind of 
thing that we would like to be able to continue to support.
    Mr. Spratt. We have had a program in the past that has had 
different names and different shorter names as well as 
acronyms. But it is a city-to-city--nuclear cities program, 
IPP, International Police. And I have forgotten what that even 
stands for. But it is all about engaging scientists from the 
nuclear, as well as the biological realm, keeping them 
constructively engaged instead of allowing them to take their 
talents elsewhere and pedaling them to the highest bidder, 
including some people who are up to no good.
    Is this programs still working? It has been criticized in 
the past because the labs were taking a substantial share off 
the top in order to administer the program. A lot of people 
question whether or not it was achieving its intended purpose. 
Do you think it still has a role to play?
    Mr. Graham. Let me just answer that in one context and that 
is Russia, where there was great concern when the Soviet Union 
collapsed that there would be thousands of scientists from its 
large nuclear industry that would drift off into the hands of 
bad people. When we were in Russia in September, we asked about 
that question and they--and our effort, which was to provide 
alternative employment for those scientists. They said in the 
nuclear area they thought it had been highly successful. And 
frankly now that Russia was recovering and has more economic 
capability of its own, our program is beginning to retreat with 
victory. There has not been a similar effort on the biological 
side, and that would be an area that we would hope to 
encourage. Because we think that the way that terrorists are 
likely to become biologically capable is not when the 
terrorists becomes a biologist, but when the biologist becomes 
a terrorist and brings their expertise to the table of 
destruction.
    Mr. Spratt. We went to Vektar together some years ago. You 
have probably been so many times you have forgotten that 
particular trip. I remember looking over the shoulder of one of 
the biologists there in the lab and he was working on a project 
and he was connected by the Internet with Chapel Hill doing the 
same sort of work in sponsoring that particular program.
    Time is just about up. Let me ask you two last questions. 
In raising the level of awareness to the----
    Mr. Taylor. Mr. Spratt, if I may. We have three votes on 
the House floor. I am going to yield the chair to you and you 
can stay here as long as you want. But I am going to go try to 
make those votes. Okay?
    Mr. Spratt. Hit the road.
    Mr. Taylor. I want to thank you, gentlemen, for a very, 
very strong and sobering report.
    Mr. McHugh. Mr. Chairman, before you yield, would you yield 
to me? And we are going to see what devastation Mr. Spratt can 
create by himself. But I want to add my words and I am sure 
there will be none. Great appreciation to you and your fellow 
commissioners, particularly to our two former congressional 
colleagues. I hope we can have the opportunity, particularly in 
the classified setting, to submit some questions that in my 
mind arose during the discussion.
    And in an editorial comment in closing, I would say when we 
are talking about ballistic missile defense (BMD) or the 
likelihood of chemical versus biological, I will agree with Dr. 
Allison--he didn't put it in these words--but we better learn 
very quickly how to walk and chew gum because we have got to be 
prepared to meet all those level of threats. And your report 
has helped us to focus on that and I commend and thank you for 
it. With that, I would yield to the acting chairman, the acting 
gentleman from South Carolina, Mr. Spratt.
    Mr. Spratt. [Presiding.] Two quick questions. In raising 
the level of attention to the biological threat which has 
tended to be back-burnered in the past, I don't think you mean 
to leave the interpretation that we can let up our efforts in 
the nuclear area in particular.
    Dr. Allison. Agreed.
    Mr. Spratt. That is an affirmative nod on the part of the 
two of you, I take it.
    Mr. Talent. We agree, Mr. Chairman.
    Mr. Spratt. And secondly, we have spent about the same 
amount of money on all of these programs, even though the 
content of what we have been spending it for has changed from 
year to year. About $400 million for Nunn-Lugar, altogether the 
Cooperative Threat Reduction (CTR) is about two billion 
dollars. Do you think this is adequate particularly in light of 
your new found concern for biological weapons? Are we spending 
enough here to----
    Mr. Graham. In my assessment, the answer is no. And two 
areas--I will not repeat the biological, but I will return to 
an earlier question. We have been underfunding our key 
international agency on the nuclear side, and that is the 
International Atomic Energy Agency, and have been providing 
much of the funding in a very unstable set of small project 
funding. We need to reevaluate what we are--what we want the 
IAEA to be able to do for our benefit and what the resources 
are going to be required to do that. And then we need to lead 
the international community to provide those resources.
    Dr. Allison. If I could briefly. I agree that the answer is 
no. I think--if I could recommend, I would say President Obama 
in the campaign said that he was going to develop a plan over 
the first four years of his Administration to assure that on 
the nuclear front all weapons and all material everywhere in 
the world was locked down to a satisfactory standard. I would 
suggest you might challenge the Administration to come forth 
with that plan and a strategy for accomplishing it and saying 
money is not the constraint, tell us what money you need for 
those purposes. I don't think it is a lot more money, but I 
think it is somewhat more money. And I think, secondly, the 
flexibility to use the money in particular ways they should be 
challenged to say if there is some constraint that Congress is 
now putting on the spending of the money that is preventing you 
from accomplishing that objective, come back and tell us about 
that.
    Mr. Spratt. We will be in further touch with you. Thank you 
very much for your good work and for your excellent testimony 
today. We greatly appreciate it.
    Mr. Graham. Thank you very much, Mr. Congressman. And on 
behalf of the three of us and the other members of the 
Commission, we express our deep gratitude for the opportunity 
to present this report to such an important committee of the 
Congress.
    [Whereupon, at 1:05 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                            January 22, 2009

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 22, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 53055.001
    
    [GRAPHIC] [TIFF OMITTED] 53055.002
    
    [GRAPHIC] [TIFF OMITTED] 53055.003
    
    [GRAPHIC] [TIFF OMITTED] 53055.004
    
    [GRAPHIC] [TIFF OMITTED] 53055.005
    
    [GRAPHIC] [TIFF OMITTED] 53055.006
    
    [GRAPHIC] [TIFF OMITTED] 53055.007
    
    [GRAPHIC] [TIFF OMITTED] 53055.008
    
    [GRAPHIC] [TIFF OMITTED] 53055.009
    
    [GRAPHIC] [TIFF OMITTED] 53055.010
    
    [GRAPHIC] [TIFF OMITTED] 53055.011
    
    [GRAPHIC] [TIFF OMITTED] 53055.012
    
    [GRAPHIC] [TIFF OMITTED] 53055.013
    
    [GRAPHIC] [TIFF OMITTED] 53055.014
    
    [GRAPHIC] [TIFF OMITTED] 53055.015
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 22, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Clearly, obtaining a nuclear weapon is very difficult 
but biological weapons are more readily available and require a 
different and lesser technological skill set and more readily available 
materials. Based on your studies, what is a possible scenario and how 
can we undertake a proactive stance today that would prevent this 
event?
    Mr. Graham, Mr. Talent, and Dr. Allison. Our commissioners 
unanimously concluded that unless we act urgently and decisively, it 
was more likely than not that terrorists would use a weapon of mass 
destruction somewhere in the world by the end 2013. We also concluded 
that terrorists are more likely to obtain and use a biological weapon 
than a nuclear weapon. On December 2, 2008, the Director of National 
Intelligence publicly agreed with this assessment.
    Possible bioterrorism scenarios range from a domestic lone-wolf 
contaminating a salad bar in a fast-food restaurant, to small- and 
large-scale bioattacks by non-state actors, and bioattacks on a 
catastrophic scale by a nation-state.
    Preventing nuclear terrorism is simple in concept: keep terrorists 
from obtaining highly enriched uranium or plutonium. If they don't have 
these materials, they will not be able to build a nuclear weapon.
    The classic nuclear nonproliferation model--locating, locking down 
and eliminating loose nuclear materials--is not applicable to the bio 
threat. This is true for several reasons. First, highly enriched 
uranium and plutonium do not exist in nature, while virtually all of 
the potential bioterrorism pathogens are found across the globe. 
Second, the engineering skills necessary to build a nuclear weapon are 
highly specialized. The skills needed to produce a bioweapon, on the 
other hand, are today possessed by graduate students. Lab technicians 
isolate anthrax, plague, tularemia and other deadly pathogens every day 
as they treat patients or conduct research in human and veterinary 
medicine. And every crop-dusting farmer knows the process to spray live 
biological materials. Third, the equipment needed to produce large 
quantities of weapons-grade pathogens can be purchased on the Internet 
for little more than what you would pay for a used minivan. Thus, the 
pathogens in question cannot be contained, the equipment needed to 
produce them is readily available, and their application is common 
knowledge. The false notion that bioweapons can be contained through 
the same policies as nuclear weapons must be discarded.
    Unfortunately, the only thing that nuclear weapons and bioweapons 
do have in common is that the potential lethality from a properly 
executed biological attack could rival or exceed that of a nuclear 
weapon.
    Fortunately, there are proactive steps that the nation can take 
against a biological attack. These actions include continued support 
and investment in international treaties such as the Biological Weapons 
Convention (BWC), support for U.N. Resolution 1540, and common-sense 
security measures for U.S. labs.
    U.S. leadership at the upcoming 2011 Review Conference of the BWC 
is essential. The 1972 BWC outlaws biological weapons, bars parties 
from providing assistance to anyone seeking them, and obligates 
governments to take any necessary measures to prevent anyone on their 
territory from obtaining biological weapons. To be clear, the 
Commission believes that the U.S. decision to withdraw from the 2001 
BWC Protocol negotiations was sound. However, opposition to the 
Protocol is not a firm basis for U.S. policy. We must lead by promoting 
a new approach for strengthening national implementation of the BWC. 
One clear way to convey the importance that the U.S. places on halting 
proliferation would be for the Obama Administration to send a high-
level official to address the Conference.
    Between now and 2011, the United States should work with its allies 
to promote measures that would ensure more effective national 
implementation of the BWC. The ability of the U.S. to exercise maximum 
influence to enhance the global effort to avoid the proliferation of 
biological weapons would be significantly advanced if Congress were to 
adopt the recommendations of the Commission. This action would position 
the U.S. as having the gold standard for national security of 
biological weapons or materials.
    These steps are essential, but their adoption and adherence will 
not stop a determined adversary.
    Given the accessibility of the pathogens in question, and the 
skills and equipment needed to produce them, everyone must understand 
that there are clear limits to what can be done to prevent an attack. 
In order to deter such an attack, or severely limit its lethality, the 
United States must develop the capabilities to (1) rapidly recognize a 
pathogen or biological weapon, (2) treat the population before illness 
sets in, and (3) be able to vaccinate those who could be exposed in the 
future. In short, we must develop the capability to prevent a highly 
lethal pandemic, or a bio attack from becoming a bio-Katrina and 
causing mass casualties. Our ability to develop these capabilities is 
not a matter of speculation, it is a question of our nation's budgetary 
priorities.
    As stated in our attached article, ``Bioterrorism: Redefining 
Prevention,'' we expanded the use of the word prevention when referring 
to the bio threat. We must pursue all traditional forms of prevention, 
but America must also he prepared to prevent a bioattack from becoming 
a biocatastrophe. This is why we strongly support investments in 
programs that will improve capabilities for rapid recognition, rapid 
response and rapid recovery. There is no higher priority than properly 
funding the Biomedical Advanced Research and Development Authority 
(BARDA) at the Department of Health and Human Services. America must 
have the capability to produce vaccines and therapeutics rapidly and 
inexpensively.
    Developing these capabilities will require significant logistical 
and technological advancements. However, within these enormous 
challenges lies an opportunity for no-regret investments in our 
national security, economic growth, and technological dominance. The 
United States has an opportunity to lead the world by innovating how 
vaccines and medicines are made, so that they can be made more rapidly 
and less expensively. Improving the infrastructure to respond to a 
public health crisis (whether an attack or a natural event) is an 
opportunity to improve U.S. national security and for global American 
leadership, technical innovation, and economic stimulus.
    Mr. Forbes. The Commission did a good job with regards to Iran, 
Russia and North Korea in terms of state-sponsored WMD. What are your 
perceptions regarding China and its role in the proliferation of 
nuclear weapon technology and capability, particularly with respect to 
non-state entities and countries that we would not consider allies?
    Dr. Allison. As the emerging superpower and, potentially, a future 
target, China has an opportunity and vital interest to lead in 
preventing nuclear terrorism and proliferation. As has been repeatedly 
demonstrated over the last several years, China is the only party that 
could plausibly orchestrate the complete, verifiable elimination of 
North Korea's nuclear arsenal. Further, due to its long history of 
relations with Islamabad, China has an important role to play in the 
Pakistani case as well.
    Rather than seeing China as a competitor or spoiler, in an effort 
to bolster the nonproliferation regime and enhance nuclear security 
globally, we should enlist it as a leading partner in President Obama's 
ambitious nuclear security agenda.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. Given the information presented in the report, should 
entities sharing select agents and toxins such as botulinum toxin with 
Iran and Iranian universities, and collaborating with scientists in 
Iran on the handling and manipulation of toxin[sl, reconsider those 
relationships? Furthermore, should the U.S. be doing more to ensure 
that entities that have these relationships are not incentivized to 
continue and/or expand these relationships?
    Mr. Talent. The current regulatory scheme in the U.S. regarding 
Iran is extensive, and precludes legally sharing select agents and 
toxins such as botulinum toxin to Iranian universities without 
extensive oversight and licensing from the U.S. government.
    Domestically, aliens from Iran are prohibited from possessing 
select agents, of which botulinum is one. Within the U.S., select 
agents are regulated by the Department of Health and Human Services 
(HHS) and the Department of Agriculture (USDA). The possession and 
transfer of the toxin is restricted to those people who have (1) 
received a Security Risk Assessment (SRA), which entails a background 
check performed by the Department of Justice (DOJ), and (2) are working 
in a facility that is cleared for select agents and has been inspected 
by either HHS or USDA. According to the USA PATRIOT Act (2001), aliens 
from Iran, and other countries determined by the Department of State to 
have provided support for international terrorism, are considered to be 
restricted persons and are prohibited from possession of select agents. 
For export of select agents such as botulinum toxin, the regulatory 
regime is likewise extensive:
    <bullet>  According to the Treasury's Office of Foreign Assets 
Control (OFAC), U.S. persons generally may not enter into any 
transactions, including exports of goods or services, to Cuba, Iran, 
and Sudan or to foreign nationals from those countries.
    <bullet>  Articles of military significance, of which botulinum 
toxin would be considered, are subject to export controls that are part 
of the State Department's International Traffic in Arms Regulations 
(ITAR). ITAR-controlled items and services may not be exported from the 
U.S. without a license from the State Department's Directorate of 
Defense Trade Controls.
    <bullet>  U.S. companies may not engage in export transactions 
involving persons whose export privileges have been revoked or 
suspended, or with entities known to have ties to embargoed countries, 
terrorist organizations, or international narcotics traffickers. There 
are lists maintained by Treasury and State for this determination.
    <bullet>  Export control regulations prohibit exports of any items 
when the exporter knows that the items will be used in connection with 
the proliferation of nuclear, chemical or biological weapons.
    Again, the current export regulatory scheme in the U.S. precludes 
the legal transfer to Iranian universities without extensive oversight. 
The process does not appear to be currently incentivized in the 
slightest.
    Mr. Wilson. The [Commission] report states that ``to counter the 
threat of Biological Weapons proliferation and terrorism will require 
concerted action across a continuum that extends from prevention to 
consequence management.'' Does prevention include limiting companies 
which may be involved in the proliferation of Weapons of Mass 
Destruction from having full access to United States markets?
    Mr. Talent. Detecting companies transferring WMD technology is 
usually a function of good intelligence and law enforcement work. There 
are a host of U.S. statutes governing the export of U.S. technology, 
especially pertaining to weapons of mass destruction, and it has long 
been the policy of the United States to encourage other states to enact 
and enforce strong export control laws.
    In April 2004, the U.N. Security Council adopted United Nations 
Security Council Resolution 1540, establishing for the first time 
binding obligations on all U.N. member states under Chapter VII of the 
U.N. Charter to take and enforce effective measures against the 
proliferation of WMD, their means of delivery, and related materials. 
UNSCR 1540, if fully implemented, can help ensure that no State or non-
State actor is a source or beneficiary of WMD proliferation. All states 
have three primary obligations under UNSCR 1540 relating to such items: 
to prohibit support to non-State actors seeking such items; to adopt 
and enforce effective laws prohibiting the proliferation of such items 
to non-State actors, and prohibiting assisting or financing such 
proliferation; and to take and enforce effective measures to control 
these items, in order to prevent their proliferation, as well as to 
control the provision of funds and services that contribute to 
proliferation.
    If implemented successfully, each state's actions will 
significantly strengthen the international standards relating to the 
export of sensitive items and support for proliferators (including 
financing) and ensure that non-state actors, including terrorist and 
black-market networks, do not gain access to chemical, nuclear or 
biological weapons, their means of delivery or related materials. The 
Commission discussed Resolution 1540 and endorsed adherence via 
international initiatives like the Global Initiative to Combat Nuclear 
Terrorism.
                                 ______
                                 
                 QUESTION SUBMITTED BY MS. SHEA-PORTER
    Ms. Shea-Porter. In 2005, the National Academy of Sciences (NAS) 
issued a report called ``Safety and Security of Commercial Spent 
Nuclear Fuel Storage: Public Report.'' This report concluded, ``Spent 
nuclear fuel stored in pools at some of the nation's 103 operating 
commercial nuclear reactors may be at risk from terrorist attacks.'' 
Among the NAS findings (Finding 2A),
        ``Terrorists view nuclear power plant facilities as desirable 
        targets because of the large inventories of radionuclides they 
        contain. The committee believes that knowledgeable terrorists 
        might choose to attack spent fuel pools because (1) at U.S. 
        commercial power plants, these pools are less well protected 
        structurally than reactor cores; and (2) they typically contain 
        inventories of medium- and long-lived radionuclides that are 
        several times greater than those contained in individual 
        reactor cores.''
    They noted the 9/11 Commission's finding (in Staff Statement No. 
16, Outline of the 9/11 Plot, pages 12-13) that Al Qaeda had originally 
targeted nuclear plants, an indication that `commercial nuclear plants 
are of interest to terrorist groups.'
    The NAS committee considered many terrorist scenarios and found 
that spent fuel containment pools were vulnerable to attack. It found 
that government had not considered the risk presented by a plane flown 
at high speed and deliberately crashed into a commercial nuclear 
plant's spent fuel containment pool, which could set off fires and 
release large amounts of radiation.
    According to CRS, spent nuclear fuel is moved from pool storage to 
dry storage as needed to make room for newly discharged spent fuel from 
reactors. So there isn't much net reduction in pool storage (except in 
the case of decommissioned reactors, where all the spent fuel is put 
into dry storage so the pools can be closed). In the four years since 
the NAS report, the U.S. has not made progress in converting to a safer 
method of storage.
    My corner of New England has one of these vulnerable nuclear 
plants. About 1.35 million people in New Hampshire, Maine, and 
Massachusetts live within 30 miles of Seabrook Station Nuclear Power 
Plant (located in the Seacoast region of New Hampshire), and 3.8 
million live within 40 miles in the Greater Boston area. An attack 
could be catastrophic, as a fire in the containment pool would lead to 
an explosion that could take out most of New England and the Canadian 
Maritimes, depending on the winds, for centuries.
    Have you considered this particular type of nuclear threat? Please 
elaborate. What recommendations do you have to deal with this kind of 
terrorist threat?
    Dr. Allison. I share your concern and I address that very threat in 
my book, Nuclear Terrorism (pg. 53-56). To address this vulnerability 
in a sustainable way, Congress must work to separate politics from 
science in our deliberations about Yucca Mountain as a permanent 
disposal site of nuclear waste.

                                  <all>

</pre></body></html>
